No.

In the Supreme Court of the United States
UNITED STATES FISH AND WILDLIFE SERVICE, ET AL.,
PETITIONERS

v.
SIERRA CLUB, INC.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
JEFFREY BOSSERT CLARK
Assistant Attorneys General
EDWIN S. KNEEDLER
Deputy Solicitor General
MICHAEL R. HUSTON
Assistant to the Solicitor
General
H. T HOMAS BYRON III
THOMAS PULHAM
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether Exemption 5 of the Freedom of Information Act, 5 U.S.C. 552(b)(5) (2012), by incorporating
the deliberative process privilege, protects against compelled disclosure a federal agency’s draft documents
that were prepared as part of a formal interagency consultation process under Section 7 of the Endangered
Species Act of 1973, 16 U.S.C. 1536, and that concerned
a proposed agency action that was later modified in the
consultation process.

(I)

PARTIES TO THE PROCEEDING

Petitioners were the appellants in the court of appeals.
They are the United States Fish and Wildlife Service
and the National Marine Fisheries Service.
Respondent is Sierra Club, Inc.
RELATED PROCEEDINGS

United States District Court (N.D. Cal.):
Sierra Club, Inc. v. United States Fish & Wildlife
Serv., No. 15-cv-5872 (July 24, 2017)
United States Court of Appeals (9th Cir.):
Sierra Club, Inc. v. United States Fish & Wildlife
Serv., No. 17-16560 (Dec. 21, 2018), petition for
reh’g denied, May 30, 2019

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory and regulatory provisions involved ........................... 2
Statement ...................................................................................... 2
Reasons for granting the petition ............................................. 13
A. The decision below is wrong ......................................... 16
1. The deliberative process privilege serves
important governmental interests ....................... 16
2. The Services’ draft documents fall well
within the deliberative process privilege ............ 17
3. The court of appeals’ reasons for refusing
to apply the deliberative process privilege
do not withstand scrutiny ..................................... 20
B. The question presented warrants review .................... 27
Conclusion ................................................................................... 34
Appendix A — Court of appeals order and amended
opinion (May 30, 2019) ................................. 1a
Appendix B — District court order following in camera
review (July 24, 2017) ................................ 38a
Appendix C — Statutory and regulatory provisions .......... 54a
TABLE OF AUTHORITIES

Cases:
ACLU v. United States Dep’t of Justice, 844 F.3d 126
(2d Cir. 2016) ....................................................................... 31
Assembly of the State of Cal. v. United States Dep’t
of Commerce, 968 F.2d 916 (9th Cir. 1992) ...................... 17
Bennett v. Spear, 520 U.S. 154 (1997)...................... 17, 23, 24
Board of Miss. Levee Comm’rs v. United States
Envtl. Prot. Agency, 674 F.3d 409 (5th Cir. 2012)........... 21

(III)

IV
Cases—Continued:

Page

Center for Biological Diversity v. United States Fish
& Wildlife Serv., 450 F.3d 930 (9th Cir. 2006) ................. 17
Cooling Water Intake Structure Coal. v.
United States Envtl. Prot. Agency, 905 F.3d 49
(2d Cir. 2018) ............................................................... 8, 9, 31
Depar tment of the Interior v. Klamath Water Users
Protective Ass’n, 532 U.S. 1 (2001) ......................... 3, 17, 32
EPA v. Mink, 410 U.S. 73 (1973) ......................................... 16
FBI v. Abramson, 456 U.S. 615 (1982) ................................ 16
Florida House of Representatives v. United States
Dep’t of Commerce, 961 F.2d 941 (11th Cir.),
cert. dismissed, 506 U.S. 969 (1992) ............................ 26, 31
John Doe Agency v. John Doe Corp., 493 U.S. 146
(1989) .................................................................................... 16
Jordan v. United States Dep’t of Justice,
591 F.2d 753 (D.C. Cir. 1978),
overruled in part on other grounds by
Crooker v. Bureau of Alcohol, Tobacco & Firearms,
670 F.2d 1051 (D.C. Cir. 1981) ........................................... 33
Lujan v. Defenders of Wildlife, 504 U.S. 555 (1992) ............ 4
NLRB v. Sears, Roebuck & Co., 421 U.S. 132
(1975) ........................................................................... passim
National Sec. Archive v. CIA, 752 F.3d 460
(D.C. Cir. 2014) ...................................... 12, 15, 17, 27, 30, 32
Pacific Coast Fed’n of Fishermen’s Ass’ns v.
Gutierrez, 606 F. Supp. 2d 1122 (E.D. Cal. 2008) ............ 23
Pies v. United States Internal Revenue Serv.,
668 F.2d 1350 (D.C. Cir. 1981) ........................................... 26
Reliable Automatic Sprinkler Co. v. Consumer Prod.
Safety Comm’n, 324 F.3d 726 (D.C. Cir. 2003) ................ 18
Renegotiation Bd. v. Grumman Aircraft Eng’g
Corp., 421 U.S. 168 (1975) ......................................... passim

V
Cases—Continued:

Page

Sierra Club v. United States Dep’t of Energy,
825 F. Supp. 2d 142 (D.D.C. 2011) .................................... 22
United States v. Weber Aircraft Corp., 465 U.S. 792
(1984) .................................................................................... 16
United States Dep’t of Justice v. Repor ters Comm.
for Freedom of the Press, 489 U.S. 749 (1989) ................. 33
Upjohn Co. v. United States, 449 U.S. 383 (1981) .............. 32
Wolfe v. Department of Health & Human Servs.,
839 F.2d 768 (D.C. Cir. 1988) ............................................. 20
Statutes and regulations:
Administrative Procedure Act, 5 U.S.C. 551 et seq. ........ 22
Endangered Species Act of 1973, 16 U.S.C. 1531
et seq.:
16 U.S.C. 1533(c) ............................................................... 4
16 U.S.C. 1536 (§ 7) .........................................passim, 55a
16 U.S.C. 1536(a)(2) ................................................... 4, 55a
16 U.S.C. 1536(b)(3)(A) ............................................. 5, 55a
FOIA Improvement Act of 2016,
Pub. L. No. 114-185, 130 Stat. 538 ...................................... 3
Freedom of Information Act, 5 U.S.C. 552 (2012)................ 2
5 U.S.C. 552(b) ........................................................... 3, 54a
5 U.S.C. 552(b)(5) ............................................passim, 54a
33 U.S.C. 1326(b) ..................................................................... 6
50 C.F.R. (2013):
Section 402.13 ............................................................ 4, 56a
Section 402.14 .......................................................... 11, 57a
Section 402.14(a) ........................................................ 4, 57a
Section 402.14(g)........................................................ 5, 60a
Section 402.14(g)(1) ................................................... 5, 60a
Section 402.14(g)(4) ................................................... 5, 60a

VI
Regulations—Continued:

Page

Section 402.14(g)(5) .........................................passim, 60a
Section 402.14(h)........................................................ 5, 62a
Section 402.14(h)(3) ............................................... 4, 5, 62a
Section 402.14(l)......................................................... 4, 65a
Section 402.14(l)(1) .......................................17, 24, 26, 65a
Section 402.14(l)(2) ................................................ 27, 65a
Miscellaneous:
51 Fed. Reg. 19,926 (June 3, 1986) ....................................... 19
76 Fed. Reg. 22,174 (Apr. 20, 2011) ....................................... 6
79 Fed. Reg. 48,300 (Aug. 15, 2014) ....................................... 8
80 Fed. Reg. 26,832 (May 11, 2015) ....................................... 4
84 Fed. Reg. 44,976 (Aug. 27, 2019) ....................................... 4
S. Rep. No. 813, 89th Cong., 1st Sess. (1965) ................ 16, 32
U.S. Fish & Wildlife Serv. & Nat’l Marine
Fisheries Serv.:
Endangered Species Act Section 7 Consultation
Programmatic Biological Opinion on the U.S.
Environmental Protection Agency’s Issuance
and Implementation of the Final Regulations
Section 316(b) of the Clean Water Act
(May 19, 2014), https://www.epa.gov/sites/
production/files/2015-04/documents/final_
316b_bo_and_appendices_5_19_2014.pdf .............. 8, 20
Endangered Species Consultation Handbook:
Procedures for Conducting Consultation and
Conference Activities Under Section 7 of the
Endangered Species Act (Mar. 1998),
https://www.fws.gov/endangered/esa-library/
pdf/esa_section7_handbook.pdf .................................. 22

In the Supreme Court of the United States
No.
UNITED STATES FISH AND WILDLIFE SERVICE, ET AL.,
PETITIONERS

v.
SIERRA CLUB, INC.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the United States
Fish and Wildlife Service and the National Marine Fisheries Service, respectfully petitions for a writ of certiorari to review the judgment of the United States Court
of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW

The amended opinion of the court of appeals (App.,
infra, 1a-37a) is reported at 925 F.3d 1000. The order of
the district court (App., infra, 38a-53a) is unreported.
JURISDICTION

The judgment of the court of appeals was entered on
December 21, 2018. A petition for rehearing was denied
on May 30, 2019 (App., infra, 2a). On August 19, 2019,
Justice Kagan extended the time within which to file a
petition for a writ of certiorari to and including Septem-

(1)

2
ber 27, 2019. On September 17, 2019, Justice Kagan further extended the time to and including October 25, 2019.
The jurisdiction of this Court is invoked under 28 U.S.C.
1254(1).
STATUTORY AND REGULATORY
PROVISIONS INVOLVED

Pertinent statutory and regulatory provisions are
reproduced in the appendix to this brief. App., infra,
54a-65a.
STATEMENT

In the decision below, the court of appeals held that
the deliberative process privilege—which protects documents reflecting a government agency’s deliberations
over a prospective action, NLRB v. Sears, Roebuck &
Co., 421 U.S. 132, 150 (1975)—does not protect certain
draft documents that an agency created as part of a formal interagency consultation process under Section 7 of
the Endangered Species Act of 1973 (ESA), 16 U.S.C.
1536. The court therefore compelled disclosure of the
draft documents under the Freedom of Information Act
(FOIA), 5 U.S.C. 552 (2012), even though the draft documents were never signed by the relevant agency decisionmakers or otherwise finalized, but were instead
abandoned or superseded when the proposed agency
action was modified in response to feedback in the ongoing consultation process. Moreover, the Ninth Circuit ordered disclosure under FOIA even though the
Second Circuit, in respondent’s separate suit challenging the final agency action at issue, had sustained the
invocation of the deliberative process privilege as to
some of the very same documents. The Ninth Circuit’s
decision implicates the core purpose of the deliberative
process privilege, which is “to enhance ‘the quality of

3
agency decisions’ by protecting open and frank discussion among those who make them within the Government.” Department of the Interior v. Klamath Water
Users Protective Ass’n, 532 U.S. 1, 9 (2001) (quoting
Sears, 421 U.S. at 151). The interagency consultation
process in this case was plainly deliberative, and the
agencies’ preliminary drafts preceding their final decisions are entitled to protection. The court of appeals’
decision to the contrary warrants this Court’s review.
1. a. FOIA generally mandates disclosure upon request of records held by a federal agency. Klamath Water Users, 532 U.S. at 7. FOIA Section 552(b), however,
identifies several categories of records that are exempt
from compelled disclosure. See id. at 7-8. Exemption 5
authorizes an agency to withhold “inter-agency or intraagency memorandums or letters which would not be
available by law to a party other than an agency in litigation with the agency.” 5 U.S.C. 552(b)(5) (2012). Exemption 5 incorporates the civil-discovery deliberative
process privilege, which protects “documents reflecting
advisory opinions, recommendations and deliberations
comprising part of a process by which governmental decisions and policies are formulated.” Sears, 421 U.S. at
150 (citation and internal quotation marks omitted).1
b. This case concerns the application of the deliberative process privilege to draft documents created during a formal interagency consultation process under
Section 7 of the ESA. The ESA directs the Secretary of
the Interior and the Secretary of Commerce to maintain
Congress amended FOIA in 2016 by adding another condition
on withholding material from disclosure, but that amendment
applies only prospectively and does not apply to respondent’s FOIA
request at issue here. See App., infra, 12a n.7 (citing FOIA Improvement Act of 2016, Pub. L. No. 114-185, 130 Stat. 538).
1

4
a list of all species determined to be “endangered” or
“threatened” according to specified criteria, and to designate their “critical habitat.” 16 U.S.C. 1533(c). Section 7 of the ESA then requires each federal agency to
“insure that any action authorized, funded, or carried
out” by the agency “is not likely to jeopardize the continued existence of any endangered species or threatened
species or result in the destruction or adverse modification of [its critical] habitat.” 16 U.S.C. 1536(a)(2). Agencies carry out that responsibility “in consultation with
and with the assistance of ” the U.S. Fish and Wildlife
Service (FWS) and the National Marine Fisheries Service (NMFS) (collectively, the Services), acting as delegates of the Secretaries of the Interior and Commerce,
respectively. Ibid.2 The consultation may be informal
in some circumstances, 50 C.F.R. 402.13 (2013), but if
an agency determines that a proposed action is likely to
adversely affect a listed species or its critical habitat,
then the agency must engage in a formal consultation
with the appropriate Service (or both), depending on
the particular species involved. 50 C.F.R. 402.14(a)
(2013).3

2
Generally, marine species are under the jurisdiction of NMFS,
whereas all other species are under the jurisdiction of FWS. See
Lujan v. Defenders of Wildlife, 504 U.S. 555, 586 n.3 (1992) (Stevens, J., concurring in the judgment).
3
The regulations governing ESA Section 7 consultation were
amended in 2015 and 2019 in certain respects not directly relevant
here. See 80 Fed. Reg. 26,832, 26,844-26,845 (May 11, 2015); 84 Fed.
Reg. 44,976, 44,516-44,517 (Aug. 27, 2019). Subsection (g)(5) of
50 C.F.R. 402.14, the provision principally relevant here, was not
amended. Other subsections cited in this brief, subsections (h)(3)
and (l), were redesignated as subsections (h)(2) and (m), respectively, without changes to the points for which they are cited.

5
The culmination of a formal consultation is the issuance by one or both Services of a “written statement,”
called a “biological opinion,” “setting forth the [Service’s] opinion” as to “how the agency action affects the
species or its critical habitat,” 16 U.S.C. 1536(b)(3)(A)—
specifically whether the action, taken together with
cumulative effects, “is likely to jeopardize the continued
existence of listed species or result in the destruction or
adverse modification of critical habitat,” 50 C.F.R.
402.14(g)(4) (2013); see 50 C.F.R. 402.14(h) (2013) (describing a Service’s “biological opinion”). If the Service
concludes that jeopardy or adverse modification of critical habitat is likely—that is, if it issues what is known as
a “jeopardy opinion”—then it must suggest any “reasonable and prudent alternatives” (RPAs) to the proposed
agency action that the Service believes will avoid jeopardizing the species or causing adverse modification of
critical habitat. 16 U.S.C. 1536(b)(3)(A); see 50 C.F.R.
402.14(h)(3) (2013).
Regulations implementing ESA Section 7 provide for
the interagency consultation process to be collaborative. See 50 C.F.R. 402.14(g) (2013). The Service and
the relevant action agency work together to determine
the risks to listed species and critical habitat created by
the agency’s proposed action and, if necessary, how best
to mitigate those risks. Ibid. For example, the Service
must “[r]eview all relevant information provided by”
the action agency, 50 C.F.R. 402.14(g)(1) (2013); it must
“[d]iscuss” the basis for the findings in its opinion with
the agency, 50 C.F.R. 402.14(g)(5) (2013); and it must
“utilize the expertise” of the agency to identify appropriate RPAs that the agency can implement to avoid
unlawful takings, ibid. Importantly, the Service must
provide a “draft biological opinion” to the action agency

6
upon request, and “while the draft is under review,” the
Service is forbidden from issuing a final biological opinion. Ibid. The Service is then provided extra time, if
necessary, to adjust the draft in response to agency
comments. Ibid.
2. In April 2011, the U.S. Environmental Protection
Agency (EPA) proposed new regulations for certain
“cooling water intake structures,” which power plants
and manufacturing facilities use to dissipate heat from
industrial processes. 76 Fed. Reg. 22,174 (Apr. 20, 2011)
(Intake-Structures Rule, or rule); see 33 U.S.C. 1326(b);
App., infra, 2a-3a. After informal consultation, EPA requested a formal consultation under Section 7 with both
Services about the potential impact of the new regulations on listed species and critical habitat. App., infra,
3a-5a.
The consultation process was lengthy and complicated. App., infra, 4a-6a; see C.A. E.R. 40-41 (declaration of Samuel D. Rauch, III, Acting Assistant Administrator for NMFS); C.A. E.R. 58-60 (declaration of
Gary Frazer, Assistant Director of FWS Ecological
Services). EPA and both Services worked collaboratively to achieve a regulatory solution that would allow
EPA to fulfill its legal obligations under the ESA and
other applicable statutes. See App., infra, 4a-6a;
C.A. E.R. 41, 58-60. Multiple options for the EPA rule
and its implementation were considered, and multiple
drafts of biological opinions and related documents prepared by each Service were discussed and circulated
within the Services and with EPA. See C.A. E.R. 41,
59-60.
EPA prepared a draft final version of the IntakeStructures Rule in November 2013. App., infra, 4a-5a.
The Services tentatively agreed to provide their draft

7
biological opinions on that rule to EPA by December 6,
2013, with final opinions to be issued on December 20,
2013. Id. at 5a. In preparation for that deadline, each
Service initially prepared its own draft opinion making
a preliminary finding that EPA’s November 2013 draft
of the Intake-Structures Rule was likely to cause jeopardy for certain ESA-listed species and negatively impact critical habitat. Ibid.; see C.A. E.R. 43, 59. The
Services also prepared draft RPAs to accompany the
draft jeopardy opinions. App., infra, 5a.
The Services sent to EPA portions of their draft
biological opinions, but never transmitted the draft opinions in their entirety, as contemplated by 50 C.F.R.
402.14(g)(5) (2013) upon the action agency’s request.
App., infra, 5a. Rather, before the draft opinions and
documents were signed or otherwise finalized for transmittal by the relevant decisionmaker at each Service,
both Services decided that “additional consultation
[with EPA] was needed to better understand and consider the operation of key elements of EPA’s rule,” id.
at 32a (Wallace, J., dissenting in part) (brackets in original); see C.A. E.R. 43, 59. The Services and EPA thereafter all “agreed that more work needed to be done and
[they] agreed to extend the time frame for the consultation.” App., infra, 32a (brackets omitted); see C.A. E.R.
43, 59-60.
Neither Service ever finalized its December 2013
draft opinion. See C.A. E.R. 43, 59-60. Instead, over
the next few months, the Services engaged in further
“extensive discussions with the EPA.” App., infra, 41a.
In March 2014, EPA prepared a new version of its draft
final Intake-Structures Rule and sent it to the Services.
Id. at 6a. The Services continued their consultation
with EPA about its new draft rule, including asking

8
questions to ensure that the Services understood how
the rule would operate. Ibid. After EPA confirmed the
Services’ understanding, the Services issued a joint
final “no jeopardy” biological opinion in May 2014, finding that EPA’s rule as constituted in March 2014 would
not jeopardize any listed species or adversely affect
critical habitat. Ibid.; see FWS & NMFS, Endangered
Species Act Section 7 Consultation Programmatic Biological Opinion on the U.S. Environmental Protection
Agency’s Issuance and Implementation of the Final
Regulations Section 316(b) of the Clean Water Act
(May 19, 2014), https://www.epa.gov/sites/production/
files/2015-04/documents/final_316b_bo_and_appendices_
5_19_2014.pdf (Final Biological Opinion). EPA issued its
final Intake-Structures Rule the same day, and published the rule in the Federal Register on August 15,
2014. App., infra, 6a; see 79 Fed. Reg. 48,300.
3. Shortly after EPA published its final IntakeStructures Rule, respondent here (Sierra Club, Inc.)
and others filed petitions for review challenging both
the EPA rule and the Services’ no-jeopardy biological
opinion. Cooling Water Intake Structure Coal. v. United
States Envtl. Prot. Agency, 905 F.3d 49, 58 (2d Cir.
2018). The Second Circuit denied the petitions for review, finding that “the Services’ biological opinion is
consistent with the ESA and its implementing regulations, and their no-jeopardy finding is supported by the
administrative record.” Id. at 83-84. In the course of
that litigation, the parties challenging the rule sought
to compel supplementation of the administrative record
with a public filing of draft documents relating to the
consultation process, including the Services’ December
2013 draft biological opinions. See id. at 65 n.9. The
Second Circuit held, however, that the agencies had

9
“adequately describe[d] the nature of the * * * requested documents and their rationale for classifying
those documents as deliberative and therefore privileged.” Ibid.
4. Respondent also submitted FOIA requests to each
Service for records related to the consultation process
concerning the Intake-Structures Rule shortly after the
final rule was issued. App., infra, 6a. The Services
released thousands of documents, but withheld others
under FOIA Exemption 5 based on the deliberative process privilege. Id. at 6a-7a.
Respondent then filed this suit against the Services
under FOIA in the Northern District of California.
App., infra, 8a. Respondent argued that the Services
had improperly withheld documents under Exemption
5, including several of the same documents that respondent and others attempted (unsuccessfully) to obtain in
the Second Circuit litigation. On cross motions for summary judgment, the district court held that four of the
disputed documents were protected against disclosure
by the deliberative process privilege, but the court
ordered the Services to produce one document in part
and 11 other documents in full. Id. at 8a-9a; see id. at
38a-53a. The documents ordered disclosed included the
Services’ two December 2013 draft biological opinions
as well as RPAs and species-specific documents prepared as possible parts of a biological opinion. Id. at
46a-52a; see pp. 6-7, supra.
5. The government appealed. A divided panel of the
court of appeals affirmed in part and reversed in part.
App., infra, 1a-29a.
a. The panel majority concluded that the deliberative process privilege protected three of the disputed

10
documents under FOIA Exemption 5, but that the Services must disclose the other nine, including the two
December 2013 draft biological opinions and draft documents prepared as possible parts of those opinions.
App., infra, 28a-29a. The majority stated that it would
apply the privilege only if the challenged documents are
“both ‘pre-decisional and deliberative,’ ” factors that the
majority “analyzed separately although the issues they
address overlap.” Id. at 14a-15a (citation omitted).
The panel majority acknowledged that the Services’
December 2013 draft biological opinions and associated
documents were never signed by the decisionmaker at
either Service for transmittal to EPA or issued as final
opinions. But the majority nevertheless concluded that
those draft documents do not qualify as “pre-decisional”
and so are subject to disclosure, reasoning that they
“represent the final view of the Services regarding the
then-current” EPA draft of the Intake-Structures Rule.
App., infra, 18a; see id. at 18a-21a. The majority stated
that the Services’ December 2013 draft opinions “had
been approved by final decision-makers at each agency”;
that the FWS decisionmaker had “made final edits” to
that Service’s draft opinion and “the document was
awaiting his autopen signature”; and that NMFS “was
preparing ‘talking points’ for its legislative affairs staff ”
and had been “preparing to release the drafts to the
public.” Id. at 19a. The majority further acknowledged
that the Services’ December 2013 draft biological opinions were abandoned or substantially modified before
the Services issued their joint final biological opinion in
May 2014, but the majority nevertheless held that the
December 2013 draft opinions were not pre-decisional
because the May 2014 final opinion addressed a “different version of the EPA’s rule.” Id. at 20a.

11
The panel majority additionally concluded that none
of the nine documents that it ordered disclosed was “deliberative.” App., infra, 21a-28a. It reasoned that the
Services’ December 2013 draft biological opinions and
related documents were “final products” that “d[id] not
contain line edits, marginal comments, or other written
material” that would reveal internal agency discussion;
that the documents did not reflect only the views of
“lower level employees” but had been sent to decisionmakers; and that they did not include any comments sent to the Services by EPA. Id. at 25a-26a. On
that basis, the majority found that the drafts “represent
the final view of the Services on the likely impact of
[EPA’s] then-proposed regulation.” Id. at 26a. The
majority was also of the view that releasing those documents would not enable “a reader to reconstruct the
‘mental processes’ that le[d] to the production of the
May 2014 no jeopardy opinion” or the deliberative process that resulted in revisions to EPA’s regulation. Id.
at 27a.
b. Judge Wallace concurred in part and dissented in
part, concluding that all of the documents at issue are
protected by the deliberative process privilege. App.,
infra, 30a-37a. He criticized the majority for “overlook[ing] the ‘context of the administrative process
which generated’ the December [2013] draft opinions,”
specifically, the fact that ESA Section 7 and its implementing regulations set up an interagency consultation
process designed to enable the Services and the action
agency to modify their drafts and their views in light of
feedback from one another. Id. at 30a (quoting Sears,
421 U.S. at 138, and citing 50 C.F.R. 402.14 (2013)).
Judge Wallace noted, in particular, the sworn declarations of officials from each Service explaining that the

12
December 2013 draft biological opinions were never
issued as final opinions, and were never even transmitted in full to EPA, because EPA and the Services
agreed that more work needed to be done in the consultation process and because EPA eventually modified its
draft of the Intake-Structures Rule in ways that caused
the Services to modify their own findings regarding potential jeopardy to listed species and harm to critical
habitat. Id. at 31a-32a. Thus, in Judge Wallace’s view,
the regulations and the record both showed definitively
that “the Services had not made a final decision as of
December [2013] and the deliberative process was ongoing.” Id. at 32a.
Judge Wallace further observed that the Services’
decision in an ESA consultation becomes final only
when a final biological opinion is issued, and he
explained, adopting the D.C. Circuit’s reasoning in
National Security Archive v. CIA, 752 F.3d 460 (2014)
(Kavanaugh, J.), that a draft that “dies on the vine”—as
the Services’ December 2013 draft opinions did when
EPA modified its rule—“is still a draft and thus still
pre-decisional and deliberative.” App., infra, 33a (quoting 752 F.3d at 463) (brackets omitted). Judge Wallace
thought it clear that, although each Service was preparing its draft opinion to be finalized in December 2013,
they “sought advice from the EPA about the decision”
before finalizing it, which this Court’s decision in Renegotiation Board v. Grumman Aircraft Engineering
Corp., 421 U.S. 168 (1975), “teaches” is “precisely the
type of inter-agency process that Congress designed
the [deliberative process] privilege to protect.” App.,
infra, 34a (citing 421 U.S. at 188). Judge Wallace also
rejected the majority’s focus on whether the draft documents reflected the views of individuals or groups of

13
employees as opposed to the views of an entire agency,
explaining that no other circuit’s precedent supports
that distinction under the deliberative process privilege
and it “contravenes Grumman Aircraft.” Ibid.
c. The court of appeals subsequently issued an
amended opinion, in which it noted that a majority of
the panel had voted to deny the Services’ petition for
rehearing and that the court had denied the Services’
petition for rehearing en banc. App., infra, 2a.
REASONS FOR GRANTING THE PETITION

This Court’s review is warranted because the decision below is plainly wrong and in serious tension with
multiple decisions of this Court and other courts of
appeals.
FOIA Exemption 5, and the deliberative process
privilege in particular, exist in order to protect government decisionmaking by promoting a candid exchange
within and between agencies before a final decision
is made. The consultation process under Section 7 of
the ESA is likewise designed to facilitate the ability of
action agencies and the Services to work together to
assess and mitigate adverse impacts on listed species
and designated critical habitat. The applicable regulations thus provide, for example, an opportunity for review by the relevant action agency (here, EPA) of a Service’s draft biological opinion before the Service
issues a final opinion.
In the course of the Section 7 consultation in this
case, the Services prepared draft biological opinions and
related documents during their deliberations, but those
drafts were never finalized or even transmitted in full
draft form to EPA for its review and comment. Instead,
those drafts were abandoned and superseded when the
Services issued their joint final opinion, because the

14
drafts addressed an earlier version of EPA’s IntakeStructures Rule that EPA modified after additional
consultation. The regulations and the record both
demonstrate that the draft documents at issue here
were part of one continuous deliberative process preceding the Services’ final joint opinion in May 2014, and
that those drafts and related discussions helped shape
the final version of EPA’s rule. That is exactly how the
ESA consultation process is supposed to work. The
draft documents that the Services prepared prior to
issuing their joint final biological opinion are therefore
protected by the deliberative process privilege through
FOIA Exemption 5.
The court of appeals’ contrary holding rests on multiple fundamental errors. First, the court believed
(App., infra, 18a) that the draft documents could constitute the “final views” of the Services even though the
drafts were not issued in final form, signed off on by the
relevant decisionmakers with authority to finalize them,
or otherwise adopted as official policy. Second, the
court failed to give effect to the Section 7 regulatory requirement that draft biological opinions be sent to the
action agency upon request as drafts, which makes it
especially clear that the draft documents at issue
here—which were never even provided in full to EPA
under the regulations—were deliberative and non-final.
Third, the court incorrectly found that EPA’s decision
to modify the November 2013 version of the draft
Intake-Structures Rule before the Services issued final
biological opinions on that version caused the Services’
drafts to take on “final” status.
The decision below is also in serious tension with decisions of this Court and other courts of appeals. The
Ninth Circuit’s refusal to take appropriate account of

15
the steps in the ESA Section 7 interagency consultation
process—especially the requirement that the action
agency be allowed to review a Service’s draft biological
opinion before the Service issues a final opinion—
strayed from this Court’s instruction in NLRB v. Sears,
Roebuck & Co., 421 U.S. 132 (1975), that the “context of
the administrative process” is crucial to applying the
deliberative process privilege. Id. at 138. In addition,
the court of appeals’ distinction between documents created by lower-level officials within an agency and those
prepared for transmission to another agency in the ESA
consultation process is the sort of distinction between
“inter-agency” and “intra-agency” memoranda that
this Court rejected in Renegotiation Board v. Grumman Aircraft Engineering Corp., 421 U.S. 168, 188
(1975). And finally, the court of appeals’ holding that
the Services’ draft opinions here fell outside the deliberative process privilege because they were directed
toward an EPA regulatory proposal that was later
changed cannot be reconciled with the D.C. Circuit’s
holding that a draft that “died on the vine * * * is still
a draft” and remains privileged. National Sec. Archive
v. CIA, 752 F.3d 460, 463 (2014) (Kavanaugh, J.).
If the decision below is left standing, it has the potential to inhibit the frank deliberations between agencies that are essential to ESA Section 7 consultations,
which are in turn essential to the wide range of federal
agency actions that may affect ESA-listed species. This
Court should grant the petition for a writ of certiorari
and reverse the judgment of the court of appeals.

16
A. The Decision Below Is Wrong
1. The deliberative process privilege serves important
governmental interests

“Congress realized” in enacting FOIA “that legitimate
governmental and private interests could be harmed by
release of certain types of information,” so it provided
“specific exemptions” to FOIA’s general disclosure
mandate “under which disclosure could be refused.”
FBI v. Abramson, 456 U.S. 615, 621 (1982). FOIA
thereby establishes a “workable balance between the
right of the public to know and the need of the Government to keep information in confidence to the extent
necessary without permitting indiscriminate secrecy.”
John Doe Agency v. John Doe Corp., 493 U.S. 146, 152
(1989) (citation omitted).
Congress recognized in particular that “frank discussion of legal or policy matters in writing” is “impossible” when such writings are “subjected to public scrutiny,” and it feared that the quality of agencies’ decisionmaking would suffer if they were “forced to ‘operate
in a fishbowl.’ ” EPA v. Mink, 410 U.S. 73, 87 (1973)
(quoting S. Rep. No. 813, 89th Cong., 1st Sess. 9 (1965)
(Senate Report)). FOIA Exemption 5 therefore “incorporates civil discovery privileges” into the statute, United
States v. Weber Aircraft Corp., 465 U.S. 792, 799 (1984),
including the deliberative process privilege—a uniquely
governmental privilege that covers “documents reflecting advisory opinions, recommendations and deliberations comprising part of a process by which governmental decisions and policies are formulated,” Sears, 421 U.S.
at 150 (citation and internal quotation marks omitted).
The deliberative process privilege aims “to enhance
‘the quality of agency decisions’ by protecting open and
frank discussion among those who make them within

17
the Government,” based on “the obvious realization that
officials will not communicate candidly among themselves if each remark is a potential item of discovery and
front page news.” Department of the Interior v. Klamath Water Users Protective Ass’n, 532 U.S. 1, 8-9
(2001) (quoting Sears, 421 U.S. at 151). The privilege
“allow[s] agencies freely to explore possibilities, engage
in internal debates, or play devil’s advocate without fear
of public scrutiny.” Assembly of the State of Cal. v.
United States Dep’t of Commerce, 968 F.2d 916, 920
(9th Cir. 1992); see National Security Archive, 752 F.3d
at 462.
2. The Services’ draft documents fall well within the
deliberative process privilege

Each of the draft documents at issue in this case
meets the requirements for the deliberative process
privilege (and FOIA Exemption 5) that this Court
described in Sears. See 421 U.S. at 149-150. Each document was created as part of the deliberative process of
internal assessment and interagency consultation that
led up to the Services’ subsequent issuance of a joint
final biological opinion on the anticipated impact on
listed species of EPA’s final Intake-Structures Rule.
“[T]he consultation process” under Section 7 of the
ESA is complete only “once the biological opinion is
issued.” Center for Biological Diversity v. United States
Fish & Wildlife Serv., 450 F.3d 930, 940 (9th Cir. 2006);
see Bennett v. Spear, 520 U.S. 154, 177-178 (1997) (holding that issuance of a biological opinion marks the “consummation of the [Service’s] decisionmaking process”
and thus constitutes final agency action) (citation and internal quotation marks omitted); 50 C.F.R. 402.14(l)(1)
(2013). Before a Service makes its final decision and
commits to final agency action, it often creates draft

18
biological opinions and related documents for purposes
of consideration and discussion. See, e.g., C.A. E.R. 41,
58-60. Those draft documents are “prepared in order to
assist an agency decisionmaker in arriving at his decision,” Grumman Aircraft, 421 U.S. at 184, and they are
a “valuable deliberative tool” in the decisionmaking process, id. at 190. While drafts frequently become increasingly polished as they approach completion—that is typical of any drafting process—a draft document retains
its draft status throughout the Section 7 consultation
process, and for that reason does not cease to be deliberative unless and until the decisionmaker adopts that
draft as the agency’s final decision. At all times until
then, the decisionmaker retains authority to revise the
document or to postpone its issuance while the agency
studies the problem further. Cf. Reliable Automatic
Sprinkler Co. v. Consumer Prod. Safety Comm’n,
324 F.3d 726, 732 (D.C. Cir. 2003) (finding no final agency
action because the agency’s position was “tentative” and
the agency still had an opportunity “to change its mind”)
(citation omitted).
The documents at issue in this case are draft biological opinions and draft constituent documents under
consideration for inclusion with the opinions if they had
been issued in final form. See App., infra, 5a, 9a-12a.
Even if some of the draft documents may have been
close to being transmitted to EPA or being issued in
final form if further consultation with EPA did not make
revisions necessary, the agency’s “deliberations” over
the issues remained ongoing until the decisionmaker
gave final approval, and the drafts remained simply
“recommendations” subject to alteration or (as happened here) pullback for further examination. Sears,

19
421 U.S. at 150 (citation omitted); see Grumman Aircraft, 421 U.S. at 190 (recognizing that the author of a
draft “may change his mind as a result of * * * discussion”).
The deliberative (and privileged) nature of these
documents is even more apparent in light of “the function of the documents * * * in the context of the administrative process which generated them.” Sears, 421 U.S.
at 138. The regulations that govern the Section 7 formal
consultation process require that EPA be given the
opportunity to review a “draft biological opinion” prepared by the Services before it became final, 50 C.F.R.
402.14(g)(5) (2013), which “allow[ed] the Services to
consider changes to the draft opinion based on the
agency’s comments,” App., infra, 30a (Wallace, J. dissenting in part); see also 51 Fed. Reg. 19,926, 19,952
(June 3, 1986) (explaining that the “release of draft
opinions to Federal agencies * * * facilitates a more
meaningful exchange of information”; “may result in
the development and submission of additional data, and
the preparation of more thorough biological opinions”;
and “helps ensure the technical accuracy of the opinion”). The regulations thereby call for the very sort of
exchange of views and information that occurred in this
case, where the Services, during their preparation and
discussion of draft biological opinions, raised questions
and concerns to EPA, after which EPA modified its
draft of the Intake-Structures Rule. That modification
in turn prompted the Services to conclude that the final
version of the rule would not jeopardize listed species
or adversely modify critical habitat.
The regulatory requirements that EPA be allowed to
review a draft opinion and that the Services be allowed
time to alter their draft in response to EPA comments

20
confirm that the preparation and sharing of draft opinions is an important part of the intra-agency and interagency deliberative process before the Services make a
final decision in an ESA consultation. “Seeking comments on a document presupposes the ability to make
changes to it,” which underscores “the deliberative
nature of ” the Services’ ongoing process in this case.
App., infra, 31a (Wallace, J., dissenting in part); cf.
Wolfe v. Department of Health & Human Servs., 839 F.2d
768, 774-776 (D.C. Cir. 1988) (en banc) (finding that,
until final agency action was taken, the process of sharing information between agencies was deliberative).
And it is particularly clear that the Services were still
deliberating here given their determination that “more
work needed to be done” in the consultation, as a result
of which the draft documents at issue were never transmitted “to EPA as the [Services’] official preliminary
position.” C.A. E.R. 59-60. Indeed, the final biological
opinion reported how the Services and EPA “engaged
in numerous exchanges about possible revisions to the
processes embodied in EPA’s draft final Rule,” thereby
improving EPA’s overall administrative process as well.
Final Biological Opinion 2.
In short, the ongoing ESA consultation process in
this case was still deliberative in December 2013, and
the Services’ drafts in that consultation process remained
privileged drafts.
3. The court of appeals’ reasons for refusing to apply
the deliberative process privilege do not withstand
scrutiny

The court of appeals’ holding that the Services’ draft
documents were not covered by the deliberative process
privilege rested on multiple errors, and those errors

21
implicate the core interests that the privilege exists to
protect.
a. First and most simply, the court of appeals badly
erred by concluding that the draft December 2013 biological opinions and related documents constituted the
Services’ “final views and recommendations regarding
the EPA’s then-proposed regulation,” App., infra, 18a,
even though the documents had not been signed by the
relevant decisionmakers, had not been transmitted to
EPA, and had not been otherwise finally issued, see
C.A. E.R. 59. Rather than allow those dispositive facts
to control the outcome, the court chose to focus on
aspects of the record showing that the December 2013
draft opinions were in the hands of decisionmakers at
the Services (as opposed to lower-level officials), and
were in the court’s estimation nearly final because: the
draft opinions would not be sent to “another decisionmaker higher up the chain,” but instead “contain[ed]
the final conclusions by the final decision-makers” at
each agency; the FWS decisionmaker had made “final
edits” to that draft opinion and it “was awaiting his
autopen signature” for transmittal to EPA; and NMFS
“was preparing ‘talking points’ for its legislative affairs
staff and preparing to release the drafts to the public.”
App., infra, 18a-19a; see also id. at 25a (the drafts were
not “prepared by low-level officials”; they contained the
Services’ seals; and they did not “contain line edits[ or]
marginal comments”).
None of those facts means that the agencies’ deliberative process had terminated as a legal matter, because
only the actual exercise of authority by a properly
vested decisionmaker can commit an agency to the policy or decision reflected in a draft document. See, e.g.,
Board of Miss. Levee Comm’rs v. United States Envtl.

22
Prot. Agency, 674 F.3d 409, 420 (5th Cir. 2012) (affirming agency’s conclusion that an environmental impact
statement “was not ‘final’ ” until the “Record of Decision
had been signed”); Sierra Club v. United States Dep’t
of Energy, 825 F. Supp. 2d 142, 156-157 (D.D.C. 2011)
(“Regardless of whatever steps have been taken thus
far, [the agency] can change its mind (or, more precisely, has not yet made up its mind) until it issues a
Record of Decision.”). It is not sufficient to overcome
the deliberative process privilege that the Services’
draft opinions were available to be signed off on by the
decisionmakers—either for transmittal to EPA or to be
issued in final form if no changes were made following a
review by EPA—because a biological opinion is adopted
only by being signed and sent in final form “to the action
agency” as part of a “formal consultation package.”
FWS & NMFS, Endangered Species Consultation
Handbook: Procedures for Conducting Consultation and
Conference Activities Under Section 7 of the Endangered Species Act 4-69 (Mar. 1998), https://www.fws.gov/
endangered/esa-library/pdf/esa_section7_handbook.pdf.
Until the decisionmakers at the Services took the last
crucial steps, they retained authority to make changes
to the draft biological opinions, or to step back and consider the matter further.
The Ninth Circuit did not offer guidance that would
enable government agencies to understand at what
point in the deliberative process their drafts would
become close enough to being final (in the view of the
Ninth Circuit) so as to lose their privilege. A final biological opinion by one of the Services is final agency
action under the Administrative Procedure Act, 5 U.S.C.
551 et seq., that “alter[s] the legal regime to which the
action agency is subject, authorizing it to take the

23
endangered species if (but only if ) it complies with the
prescribed conditions.” Bennett, 520 U.S. at 178. But
a draft opinion—even a nearly final draft—carries no
legal consequences for the Service or the relevant
action agency. See, e.g., Pacific Coast Fed’n of Fishermen’s Ass’ns v. Gutierrez, 606 F. Supp. 2d 1122, 1157
n.6 (E.D. Cal. 2008) (a “draft biological opinion is not
binding or determinative whether the final [biological
opinion] is arbitrary and capricious”).
The record also illustrates another seriously problematic aspect of the court of appeals’ approach to the
deliberative process privilege in this case: the court’s
decision minimized the significance of a principal decisionmaker’s authority to conduct one last review before
putting his or her signature on a decision, and as part of
that review, to change his or her mind. An opportunity
for thorough examination up to the point of finality is
critical to sound agency decisionmaking. That is just
what happened here. After the Services’ draft opinions
were prepared and the FWS decisionmaker had made
some edits, but before the Services had issued final
opinions and even before the drafts were transmitted in
draft form to EPA, officials at the Services concluded
that further consultation was required “to better understand and consider the operation of key elements of
EPA’s rule.” App., infra, 32a (Wallace, J., dissenting in
part). The further consultation with EPA that followed
prompted changes in EPA’s draft final rule, which in
turn caused the Services to revise their conclusions regarding potential jeopardy to species or harm to critical
habitat. The decision to pause and ask additional questions is a sign of a successful interagency consultation
process; taking those steps should not expose the Services’ drafts to compelled disclosure.

24
b. In addition to resting on a mistaken legal view of
what makes a document “final,” the court of appeals’
conclusion (App., infra, 18a) that the draft documents at
issue here, if they had been signed, would have “represent[ed] the Services’ final views,” is flatly contradicted
by the record and by the regulations that govern the
ESA Section 7 consultation process. While the court’s
opinion is not entirely clear, it appears that the court
rested its conclusion on the erroneous belief that the
Services’ drafts were effectively final biological opinions under Section 7. The majority stated that the draft
opinions communicated “the final conclusions by the final
decision-makers * * * regarding whether a proposed
regulation will harm protected species and habitat.”
Ibid.; see ibid. (observing that “the issuance of a biological opinion is a final agency action”) (citing Bennett,
520 U.S. at 178); see also id. at 19a (reasoning that a
document is not protected by the deliberative process
privilege when it is “created by a final decision-maker
and represents the final view of an entire agency as to a
matter which, once concluded, is a final agency action
independent of another agency’s use of that document”).
That reasoning disregards this Court’s instruction
that applying the deliberative process privilege requires “an understanding of the function of the documents in issue in the context of the administrative process which generated them.” Sears, 421 U.S. at 138. In
the context of Section 7 consultations, the applicable regulations make clear that a draft opinion—even (unlike
here) when a Service transmits a full draft opinion to an
action agency for review—is distinct from “the issuance
of the biological opinion,” which concludes the consultation process. 50 C.F.R. 402.14(l)(1) (2013). In fact, “the
regulations forbid the Services from issuing the final

25
opinion before the agency has had time to comment on
the draft.” App., infra, 30a (Wallace, J., dissenting in
part); see 50 C.F.R. 402.14(g)(5) (2013).
The record of this case is equally clear about the court
of appeals’ error on this point: the NMFS official who
oversaw this Section 7 consultation explained in a declaration that “[b]y providing a draft for transmission to another agency, [a Service] is not rendering a final decision.
The document remains a draft and is subject to change
until final signature.” C.A. E.R. 44. The FWS decisionmaker similarly declared that, because the Services determined that additional consultation was needed here,
FWS’s draft biological opinion was “never signed by
[him] and distributed to EPA as [FWS’s] official preliminary position.” Id. at 59.
c. The court of appeals also went astray by drawing
the wrong conclusions from EPA’s decision to revise its
draft Intake-Structures Rule before the Services issued
final biological opinions on the prior version. The court
appeared to view EPA’s “November 2013 proposed rule”
as an agency action distinct from the “March 2014
revised, proposed rule,” and to proceed on the assumption that the Services had effectively engaged in two
distinct consultations, each of which must have culminated in distinct final decisions by the Services. App.,
infra, 18a (“[T]he December 2013 draft jeopardy opinions * * * represent the final view of the Services
regarding the then-current November 2013 proposed
rule; the May 2014 no jeopardy opinion represents the
final view of [the] Services regarding the later March
2014 revised, proposed rule.”); see id. at 26a. That
understanding of the Section 7 consultation process is
mistaken for two reasons.

26
First, the Section 7 consultation process cannot be
artificially bifurcated as the court of appeals suggested.
As described above, the Section 7 process is designed to
be cooperative and to facilitate input and changes from
either the Services or the action agency that arise from
their discussions. The record of this case demonstrates
that all of the draft documents at issue were part of
a single consultation process on development of an
Intake-Structures Rule. See C.A. E.R. 44-45, 59-60.
That process ultimately culminated in the Services’ formal issuance of a joint final biological opinion and EPA’s
promulgation of a final rule. See 50 C.F.R. 402.14(l)(1)
(2013) (the consultation process ends with “issuance of
the biological opinion”). The Services’ prior draft opinions considering a prior version of the EPA rule retained their status as drafts throughout that single
decisionmaking process.
Second, even if the court of appeals had been correct
to view the December 2013 draft opinions as part of a
distinct deliberative process, the most that could be said
is that the Services abandoned those drafts when EPA
modified the version of the Intake-Structures Rule that
was the subject of those drafts. And contrary to the
court of appeals’ decision below, abandonment does not
elevate a draft document into a final decision. See Florida House of Representatives v. United States Dep’t of
Commerce, 961 F.2d 941, 950 (11th Cir.) (“draft policy
options which are ultimately rejected are protected
from disclosure under the deliberative process privilege”) (citing Pies v. United States Internal Revenue
Serv., 668 F.2d 1350, 1353 (D.C. Cir. 1981)), cert. dismissed, 506 U.S. 969 (1992). A comparable situation
would arise if, for example, the Services transmitted a
draft opinion to an action agency for review per 50 C.F.R.

27
402.14(g)(5) (2013), and in response, the agency decided
to forgo the proposed action altogether. At that point,
the Services could sensibly stop work on their opinion as
well, there being no need for a final biological opinion.
See 50 C.F.R. 402.14(l)(2) (2013). The draft opinion in that
scenario would plainly remain only a draft that “d[id] not
ripen into [an] agency decision[ ].” Sears, 421 U.S. at 151
n.18. And the deliberative process privilege would continue to apply to such a draft. As then-Judge Kavanaugh
explained, a draft that “died on the vine * * * is still a
draft,” and therefore remains privileged. National
Security Archive, 752 F.3d at 463. Such “documents are
no less drafts than the drafts that actually evolve into
final Executive Branch actions.” Ibid.
B. The Question Presented Warrants Review

This Court should grant a writ of certiorari to review
the court of appeals’ erroneous holdings regarding the
deliberative process privilege. The decision below is not
only clearly wrong, it is also in serious tension with
decisions of this Court and other courts of appeals,
including the decision of the Second Circuit holding that
the Services had properly invoked the deliberative process privilege for, inter alia, the same draft biological
opinions at issue here. And if the Ninth Circuit’s decision is left standing, it would threaten to chill the candid
interagency exchange that is the very purpose of the
privilege and the Section 7 consultation process.
1. a. The court of appeals’ conclusion that draft documents can be treated as “final” agency decisions flows
from its cramped reading of this Court’s decision in
Sears. That case involved a FOIA request for memoranda and related documents “generated by the Office
of the General Counsel [of the National Labor Relations

28
Board] in the course of deciding whether or not to permit the filing with the Board of unfair labor practice
complaints.” Sears, 421 U.S. at 136. This Court explained that “an understanding of the function of the
documents in issue in the context of the administrative
process which generated them” was “[c]rucial” to applying the deliberative process privilege, id. at 138, and the
Court then examined the relevant agency procedures in
detail, id. at 155-160.
Here, rather than apply Sears’s teaching to assess
the application of the privilege by considering the
administrative process of interagency consultation under
ESA Section 7—especially the requirement that the
Services share a draft opinion with EPA upon request
so that EPA can share comments before the Service
issues a final biological opinion—the court of appeals
stated that “a document’s origins as part of the interagency consultation process between the EPA and the
Services only relate to a threshold requirement for
applying Exemption 5—that the document is an ‘interagency or intra-agency memorandum.” App., infra,
13a-14a (citation omitted). Thus, once the court determined that the drafts at issue here were interagency
memoranda, the court gave no further meaningful consideration to the applicable administrative process dictating that draft opinions remain drafts throughout the
back-and-forth consultation, which concluded only upon
issuance of a final biological opinion.
b. It is also difficult to reconcile the court of appeals’
decision with this Court’s holding in Grumman Aircraft
that FOIA Exemption 5 “does not distinguish between
inter-agency and intra-agency memoranda.” 421 U.S.
at 188. Grumman Aircraft shows that the court of appeals erred by distinguishing the December 2013 draft

29
biological opinions—which the Services were preparing
for transmission to EPA in the ongoing consultation
process—from a draft opinion “circulated internally”
within an agency for comment or reflecting only the
views of “lower level employees,” which the court
acknowledged would be protected. App., infra, 25a, 28a.
This Court in Grumman Aircraft explained that,
through Exemption 5, “Congress plainly intended to
permit one agency possessing decisional authority to
obtain written recommendations and advice from a separate agency not possessing such decisional authority
without requiring that the advice be any more disclosable than similar advice received from within the agency.”
421 U.S. at 188. That reasoning supports the privileged
status of the draft documents in this case, as Judge Wallace explained in his dissent below: “[T]he Services had
decisional authority in preparing the opinions, but
sought advice from the EPA about the decision,” which
Grumman Aircraft teaches “is precisely the type of
inter-agency process that Congress designed the privilege to protect.” App., infra, 34a. The court of appeals’
response was to acknowledge that comments on draft
biological opinions sent back to the Services by EPA
would likely receive interagency protection under the
deliberative process privilege, id. at 23a-24a, yet to refuse to find that the drafts that the Services had prepared to send (but did not send) to EPA in the first place
to elicit such comments are protected by the privilege.
Grumman Aircraft does not support any such distinction. For a privilege to be effective in an interagency
consultation process, it must protect communication
running both ways.
Grumman Aircraft also undermines the court of
appeals’ suggestion that the draft biological opinions at

30
issue here were not privileged because the FWS draft
had received edits from the FWS decisionmaker. See
App., infra, 19a. This Court in Grumman Aircraft held
that reports prepared for discussion were protected by
the deliberative process privilege even though the
authors of the reports would be among those participating in the final decision. 421 U.S. at 189-190. The court
of appeals’ assumption that the draft documents here
must have been final because decisionmakers worked
on them ignores this Court’s recognition that decisionmakers often create drafts for purposes of discussion, and those drafts remain privileged drafts. See id.
at 190 (it is error to assume that drafts “always disclose
the final views” of the author).
c. In addition, the Ninth Circuit’s decision departs
from the approach to the deliberative process taken by
other courts of appeals. As explained above, the Ninth
Circuit’s reasoning cannot be squared with the D.C.
Circuit’s decision in National Security Archive, which
rejected the contention that FOIA required disclosure
of a draft, never-released volume of the Central Intelligence Agency’s official history of the Bay of Pigs invasion. 752 F.3d at 461-462. Whereas the court of appeals
here thought it crucial that the December 2013 draft
opinions marked (in the court’s estimation) the Services’
last word on the then-existing version of EPA’s draft
Intake-Structures Rule, App., infra, 18a, 26a, the D.C.
Circuit found it inconsequential that no final version of
the draft history was ever produced. National Security
Archive, 752 F.3d at 463. Then-Judge Kavanaugh explained the commonsense proposition that “[t]here may
be no final agency document because a draft died on
the vine. But the draft is still a draft and thus predecisional and deliberative.” Ibid. The Second Circuit

31
similarly held that “a draft of a proposed op-ed article”
that “was never published” remained exempt from disclosure. ACLU v. United States Dep’t of Justice,
844 F.3d 126, 133 (2016). And the Eleventh Circuit in
Florida House of Representatives “ha[d] no problem”
concluding that the deliberative process privilege
applied to a proposed methodology for the census “that
eventually was rejected by the person in charge.”
961 F.2d at 949-950.
Notably, the Second Circuit has concluded that the
very same draft documents at issue here are protected
by the deliberative process privilege. On petitions for review of the Services’ final joint opinion, the Second Circuit sustained the Services’ invocation of the privilege
over several draft documents created during the consultation process—including the two December 2013 draft
biological opinions at issue in this case. See Cooling
Water Intake Structure Coal. v. United States Envtl.
Prot. Agency, 905 F.3d 49, 65 n.9 (2018). The Ninth Circuit attempted to distinguish that decision on the
ground that the Second Circuit had invoked the presumption of regularity afforded to an agency’s certification of the administrative record. App., infra, 14a n.8.
But the court did not engage with the Second Circuit’s
legal determination that the agencies had properly
invoked the deliberative process privilege.
2. Without further review by this Court, the Ninth
Circuit’s refusal to uphold invocation of the deliberative
process privilege in the ESA Section 7 consultation here
threatens to undermine confidence in the ability of principal decisionmakers to reserve their prerogative to
withhold final approval of a decision until the decisionmaker decides that it should take effect.

32
In addition, by diminishing the clarity that attaches
to requisite formalities in agency administration, such
as a signature or public issuance, the decision below
threatens to create uncertainty within government
agencies about when their drafts may cease to be protected as deliberative documents. The possibility that
drafts exchanged between the Services and an action
agency will be subject to compelled disclosure—and
that even drafts being prepared for transmission to the
action agency will be discoverable—would threaten to
undermine the “open and frank discussion” that Congress sought to protect in adopting FOIA Exemption 5,
with an attendant threat to diminish “ ‘the quality of
agency decisions’ ” overall. Klamath Water Users,
532 U.S. at 8-9 (quoting Sears, 421 U.S. at 151); see
Sears, 421 U.S. at 150 (“The point, plainly made in the
Senate Report [for FOIA], is that the ‘frank discussion
of legal or policy matters’ in writing might be inhibited
if the discussion were made public; and that the ‘decisions’ and ‘policies formulated’ would be the poorer as a
result.”) (quoting Senate Report 9). As then-Judge
Kavanaugh explained, this Court “has said[ that] an
uncertain privilege is ‘little better than no privilege at
all.’ ” National Security Archive, 752 F.3d at 463 (quoting Upjohn Co. v. United States, 449 U.S. 383, 393
(1981)).4

In the court of appeals, respondent “ma[de] much of the fact that
‘the Services typically include draft biological opinions in their
administrative records.’ ” App., infra, 35a (Wallace, J., dissenting in
part). But regardless of the frequency with which that has occurred,
as Judge Wallace correctly recognized, “the government’s waiver of
privilege in some contexts does not waive the privilege here, a point
that [respondent] concede[d]” below. Ibid. (citation omitted).
4

33
The court of appeals erroneously viewed as sufficient
indicators of finality the fact that the FWS draft had
been edited by a decisionmaker; that the draft did not
contain margin notes; that an employee stated that the
draft was ready for the autopen; that NMFS was preparing talking points; and that a draft document contained the “agency’s seal/header.” App., infra, 18a-19a,
25a. But the court did not explain the relative significance of those various facts. The inherent unpredictability of the Ninth Circuit’s “close enough” ruling on
finality threatens to chill the deliberative process for
the many federal agency actions affected by ESA Section 7.
At the same time, the decision below fails to meaningfully advance FOIA’s “core purpose” of “ ‘contribut[ing]
significantly to public understanding of the operations
or activities of the government.’ ” United States Dep’t
of Justice v. Reporters Comm. for Freedom of the Press,
489 U.S. 749, 775 (1989) (emphasis omitted; brackets in
original). The deliberative process privilege not only
protects the capacity for open and frank discussions
within and among agencies; it also “protects the integrity of the decision-making process itself by confirming
that ‘officials should be judged by what they decided,
not for matters they considered before making up their
minds.’ ” Jordan v. United States Dep’t of Justice,
591 F.2d 753, 773 (D.C. Cir. 1978) (en banc) (brackets
and citation omitted), overruled in part on other
grounds by Crooker v. Bureau of Alcohol, Tobacco &
Firearms, 670 F.2d 1051 (D.C. Cir. 1981) (en banc). The
disclosure of the Services’ draft biological opinions here
suggesting potential reasons for a decision that the Services did not adopt creates a risk of confusing and misleading the public. See Grumman Aircraft, 421 U.S. at

34
186. And in any event, “[t]he public is only marginally
concerned with reasons supporting a [decision] which
an agency has rejected.” Ibid. (citation omitted; second
set of brackets in original).
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
JEFFREY BOSSERT CLARK
Assistant Attorneys General
EDWIN S. KNEEDLER
Deputy Solicitor General
MICHAEL R. HUSTON
Assistant to the Solicitor
General
H. T HOMAS BYRON III
THOMAS PULHAM
Attorneys

OCTOBER 2019

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 17-16560
D.C. No. 3:15-cv-05872-EDL
SIERRA CLUB, INC., PLAINTIFF-APPELLEE
v.
UNITED STATES FISH AND WILDLIFE SERVICE;
NATIONAL MARINE FISHERIES SERVICE,
DEFENDANTS-APPELLANTS
Argued and Submitted: Mar. 15, 2018
San Francisco, California
Filed: Dec. 21, 2018
Amended: May 30, 2019
Appeal from the United States District Court
for the Northern District of California
ELIZABETH D. LAPORTE, Magistrate Judge, Presiding
ORDER AND AMENDED OPINION

Before: J. CLIFFORD WALLACE and MARSHA S. BERZON,
Circuit Judges, and TERRENCE BERG,* District Judge.

The Honorable Terrence Berg, United States District Judge for
the Eastern District of Michigan, sitting by designation.
*

(1a)

2a
ORDER

The Opinion filed December 21, 2018 and reported at
911 F.3d 967 is hereby amended. The amended opinion
will be filed concurrently with this order.
A majority of the panel has voted to deny the petition
for panel rehearing. The full court was advised of the
petition for rehearing en banc. No judge requested a
vote on whether to rehear the matter en banc pursuant
to Fed. R. App. P. 35(f ). The petition for panel rehearing and the petition for rehearing en banc are DENIED.
Future petitions for rehearing or rehearing en banc
will not be entertained in this case.
OPINION

BERG, District Judge:
Across the United States, thousands of large industrial facilities, power plants, and other manufacturing
and processing complexes draw billions of gallons of water each day from lakes, rivers, estuaries and oceans in
order to cool their facilities through cooling water intake
structures.1 These structures can harm fish, shellfish,
and their eggs by pulling them into the factory’s cooling
system; they can injure or kill other aquatic life by generating heat or releasing chemicals during cleaning processes; and they can injure larger fish, reptiles and mammals by trapping them against the intake screens.2 Section 316(b) of the Clean Water Act, 33 U.S.C. § 1326(b),
directs the Environmental Protection Agency (EPA) to

Riverkeeper, Inc. v. EPA, 358 F.3d 174, 181 (2d Cir. 2004).
See Cooling Water Intakes, Envtl. Protection Agency, https://
www.epa.gov/cooling-water-intakes.
1
2

3a
regulate the design and operation of cooling water intake structures to minimize these adverse effects.
In April 2011, the EPA proposed new regulations under Section 316(b) for cooling water intake structures.
76 Fed. Reg. 22,174 (April 20, 2011). The final rule was
published in the Federal Register in August 2014. Final
Regulations to Establish Requirements for Cooling Water Intake Structures, 79 Fed. Reg. 48,300 (Aug. 15, 2014)
(to be codified at 40 C.F.R. pts. 122 & 125). As part of
the rule-making process, EPA consulted with Appellants,
the United States Fish and Wildlife Service (FWS) and
the National Marine Fisheries Service (NMFS) (collectively, the Services), about the impact the regulation
might have under the Endangered Species Act (ESA).
Section 7 of the ESA and implementing regulations require federal agencies to consult with the Services whenever an agency engages in an action that “may affect” a
“listed species” (i.e., one that is protected under the ESA).
50 C.F.R. § 402.14(a). The purpose of the consultation
is to ensure that the agency action is “not likely to jeopardize the continued existence” or “result in the destruction or adverse modification of habitat” of any endangered
or threatened species. 16 U.S.C. § 1536(a)(2); 50 C.F.R.
§ 402.14(a). As part of this Section 7 consultation process, the Services must prepare a written biological opinion on whether the proposed agency action is one that
poses “jeopardy” or “no jeopardy” to the continued existence of a listed species or critical habitat. 50 C.F.R.
§ 402.14(h)(3). If the opinion concludes that the agency
action causes “jeopardy,” the Services must propose “reasonable and prudent alternatives” (RPAs) to the action

4a
that would avoid jeopardizing the threatened species.
16 U.S.C § 1536(b)(3)(A); 50 C.F.R. § 402.14(g)(8), (h)(3).3
Appellee, the Sierra Club, made a Freedom of Information Act (“FOIA”) request to the Services for records
generated during the EPA’s rule-making process concerning cooling water intake structures, including documents generated by the Services as part of an ESA Section 7 consultation about the rule. The Services withheld a number of the sought-after records under “Exemption 5” of FOIA, which shields documents subject to
the “deliberative process privilege” from disclosure. See
5 U.S.C. § 552(b)(5); see also Kowack v. U.S. Forest
Serv., 766 F.3d 1130, 1135 (9th Cir. 2014). The district
court determined that 12 of the 16 requested records
were not protected by the privilege, in whole or in part,
and ordered the Services to turn them over to the Sierra
Club. The Services now appeal. We affirm in part and
reverse in part.
I.

BACKGROUND
a.

Factual History

In 2012, the EPA began an informal consultation process with the Services about a proposed rule for regulating the requirements governing the operation of cooling
water intake structures. The EPA requested a formal
consultation on the proposed rule in 2013. On November 4, 2013, the Services received a revised version of
the proposed rule from the Office of Management and
The Second Circuit in a consolidated case recently denied a petition to review several challenges to this final rule under the Clean
Water Act, the Administrative Procedures Act, and the Endangered
Species Act. Cooling Water Intake Structure Coal. v. EPA, 898 F.3d
173 (2d Cir. 2018), amended, 2018 WL 4678440 (2d Cir. Sept. 27, 2018).
3

5a
Budget (OMB). On November 15, 2013, the Services
sent a “Description of the Action” (i.e. a summary of
what the Services thought the proposed rule set out to
do) to the EPA. Finally, on November 26, 2013, the
EPA responded with corrections to the Services’ description of the rule and the Services incorporated the
EPA’s corrections. The EPA and the Services tentatively agreed that the FWS and NMFS would each provide a draft biological opinion to the EPA by December
6, 2013, and a final opinion by December 20, 2013.
After reviewing the November 2013 proposed rule,
both Services prepared draft opinions finding that the
rule in its then-current form was likely to cause jeopardy for ESA-protected species and negatively impact
their designated critical habitats. The Services also
proposed RPAs to accompany those jeopardy opinions.
At the same time, NMFS discussed whether the jeopardy opinions should be sent to “the Hill” or OMB, or
posted to its docket, which was publicly available at regulations.gov.
NMFS completed its draft jeopardy opinion on December 6, 2013 and FWS completed its draft jeopardy
opinion on December 9, 2013, both for transmission to
the EPA. The ESA regulations require that the Services
make draft opinions available to the Federal agency that
initiated the formal consultation upon request. 50 C.F.R.
§ 402.14(g)(5). Here, the Services sent the EPA portions of its December 2013 draft jeopardy opinions, but
never formally transmitted them in their entirety.
On December 12, 2013, the FWS Deputy Solicitor
called and emailed the EPA General Counsel to “touch
base . . . about transmitting a document to EPA.”
He also emailed “the current draft RPAs” to the EPA

6a
that same day. On December 17, 2013, the NMFS sent
a “Revised Combined NMFS and USFWS RPA” to the
EPA. The Services have further indicated in their briefing that they also provided other unspecified portions of
the draft jeopardy opinions to the EPA.
After the transmission of these partial December 2013
jeopardy biological opinions and accompanying documents, the EPA issued a new version of the rule, the “final Rule and Preamble,” which it sent to the Services on
March 14, 2014. On April 7, 2014, NMFS employees
completed and internally circulated a draft of another
jeopardy biological opinion. During this same time
frame, the Services and the EPA discussed whether the
EPA agreed with the Services’ interpretation and understanding of the March 2014 final rule: On March
31, 2014 the Services sent the EPA a document “seeking
clarification on the Services’ understandings of key elements in EPA’s proposed action.” On April 8, 2014,
EPA “provided confirmation on the Services’ description and understanding of the key elements of EPA proposed action.” Finally, on May 19, 2014, the Services
issued a joint final “no jeopardy” biological opinion regarding the March 2014 final rule. The EPA issued the
regulation that same day, and it was published in the
Federal Register on August 15, 2014. Final Regulations to Establish Requirements for Cooling Water Intake Structures, 79 Fed. Reg. 48,300.
On August 11, 2014, the Sierra Club submitted FOIA
requests to the Services for records related to this ESA
Section 7 consultation. In response, the Services produced a large quantity of documents (some of which
were partially redacted). The Services withheld other
documents under FOIA Exemption 5, which protects

7a
“inter-agency or intra-agency memorandums or letters
that would not be available by law to a party other than
an agency in litigation with the agency.” 5 U.S.C.
§ 552(b)(5).
In summary, the key chronological dates in this FOIA
dispute are:
EPA initiates formal consultation under ESA Section 7 with the Services regarding the proposed rule.



June 18, 2013:



November 4, 2013:



November 15, 2013:



November 26, 2013:



December 3, 2013:



December 6, 2013:

The Services receive the most
recent version of the EPA’s proposed rule from
OMB.
The Services send the Description of the Action (i.e. a summary of their
understanding of the proposed rule) to the EPA
for review.
EPA sends the Services its
corrections and comments on the Description of
the Action, which the EPA incorporated into
the final description of the November 2013 proposed rule.
The Services inform the EPA
that their draft opinions are “jeopardy opinions” and will be completed on or around December 6, 2013.
jeopardy opinion.



December 9, 2013:

ardy opinion.

NMFS completes its draft
FWS completes its draft jeop-

8a
FWS Deputy Solicitor calls
the EPA General Counsel to “touch base . . .
about transmitting a document to EPA.”



December 12, 2013:



December 12 & 17, 2013:



March 14, 2014:



March 31, 2014:



April 7, 2014:



April 8, 2014:



May 19, 2014:

The Services email two
RPAs—written to accompany the draft jeopardy
opinions—to the EPA.
EPA sends the Services a new,
final rule for review and Biological Opinion analysis.
The Services send the EPA
a document requesting clarification regarding
their understanding of elements of the final rule.
NMFS employees internally circulate a draft jeopardy biological opinion relating to the March 14, 2014 proposed rule; this
draft is not sent to EPA.
EPA confirms the Services’ interpretations and understanding of the final rule
contained in the Services’ clarification document.
The Services issue a joint final
no jeopardy biological opinion regarding the
March 14, 2014 proposed rule.
b.

Procedural History

On December 21, 2015, the Sierra Club filed suit
against the Services, arguing that they had improperly
withheld documents under FOIA Exemption 5. The
parties filed cross-motions for summary judgment regarding their release. During and after that hearing
the district court and the parties narrowed the list of
contested documents to 16. The district court found
that 4 of the disputed documents were fully protected

9a
under Exemption 5 but ordered that the Services produce one document in part and the other eleven in full. 4
The Services timely appealed the district court’s order
to produce the documents, and the parties stipulated to
stay of production pending appeal. 5
The documents at issue on appeal—those that the
district court found were not exempt from disclosure—
were submitted to the panel under seal for in camera
review. They are:
1.

Biological Opinions

A 289-page
NMFS draft jeopardy biological
opinion dated December 6, 2013;

i.

“NMFS 44516.1”:

ii.

“FWS 252”:

A 72-page FWS
draft jeopardy biological opinion
dated December 9, 2013;

Although the district court initially cited the correct test for
FOIA Exemption 5—that exempt documents must be both “predecisional” and “deliberative” to avoid disclosure—the test it applied
to each document was whether it was a “relatively polished draft”
that contained “subjective comments, recommendations, or opinions.”
These factors, though they might bear on whether a document was
“pre-decisional” or “deliberative,” are not dispositive—and to the extent the district court’s analysis depended solely on these factors, it
was in error. Because the standard of review on appeal from an
Exemption 5 challenge is de novo, however, we have examined each
of the contested documents to determine whether they satisfy the
“pre-decisional” and “deliberative” test.
5
Sierra Club did not cross-appeal to challenge the district court’s
holding that four of the requested documents were completely protected under Exemption 5.
4

10a
iii.

2.

3.

A 334-page
NMFS draft jeopardy biological
opinion dated April 7, 2014;6
“NMFS 5427.1”:

Reasonable and Prudent Alternatives
(RPAs)
i.

“FWS 279”:
A 4-page FWS
RPA, dated December 17, 2013;

ii.

“FWS 308”:
A 3-page FWS
RPA, dated December 18, 2013;

iii.

“FWS 555”:
A 2-page FWS
RPA, dated March 6, 2014.

Other Documents
i.

“NMFS 61721”: A 1-page statistical table showing estimated
aggregate effects of cooling water intake structure facilities on
protected species;

ii.

“NMFS 5597.1”: A 2-page document that describes steps that
facility owners/operators must
take if abalone, an endangered
species, is affected by their cooling water intake structures;

The draft opinion itself is undated. The district court opinion
states that it was dated April 4, 2014, but the affidavit submitted on
behalf of the agency that created it states it was sent via email on
April 7, 2014. We therefore refer to it as the April 7, 2014 draft
opinion.
6

11a
iii.

“NMFS 7544.2”: A 15-page document on Anadromous Salmonid
Requirements that provides criteria and guidelines to be utilized
by owner/operators in the development of downstream migrant
fish screen facilities for hydroelectric, irrigation, and other water withdrawal projects;

iv.

“NMFS 37695”: A 2-page document that lists the steps that
owner/operators must follow if a
seal, sea lion, or fur seal, or their
designated critical habitat, may
be affected by a cooling water intake structure;

v.

“NMFS 37667”: A 3-page document that lists the steps that
owner/operators must follow if
sea turtles are affected by their
cooling water intake structures;

vi.

“NMFS 14973”: A 5-page document that lists the terms and
conditions with which the EPA
and an owner/operator must comply in order to be exempt from
Section 9 of the ESA. These
terms and conditions involve the
protocols for dealing with sea
turtles near cooling water intake
structures. The district court
held NMFS could redact one

12a
sentence but had to disclose the
rest of the document.
II.

STANDARD OF REVIEW

In FOIA cases, this court reviews summary judgment
determinations de novo. Animal Legal Def. Fund v.
U.S. Food & Drug Admin., 836 F.3d 987, 990 (9th Cir.
2016) (en banc).
III.

DISCUSSION

Section 522 of Title 5, FOIA, “mandates a policy of
broad disclosure of government documents.” Maricopa
Audubon Soc. v. U.S. Forest Serv., 108 F.3d 1082, 1085
(9th Cir. 1997) (Maricopa I) (quoting Church of Scientology v. Dep’t of the Army, 611 F.2d 738, 741 (9th Cir.
1979) (internal quotations omitted)). Agencies may withhold documents only pursuant to the exemptions listed
in § 552(b). See id.7
Here, the Services argue that the 12 documents the
district court ordered them to produce to the Sierra
Club are protected under § 552(b)(5) (Exemption 5).
Under Exemption 5, FOIA’s general requirement to
make information available to the public does not apply
In 2016, Congress amended FOIA by adding another requirement that agencies must meet before exempting material from disclosure. See FOIA Improvement Act of 2016, Pub. L. No. 114-185,
130 Stat. 538 (2016). Under the amended law, an agency “shall
withhold information” under the FOIA “only if the agency reasonably foresees that disclosure would harm an interest protected by
an exemption” or “disclosure is prohibited by law.” 5 U.S.C.
§ 552(a)(8)(A)(i). This new “foreseeable harm” requirement does
not apply to Sierra Club’s FOIA request because the amendment
only applies to a “request for records . . . made after the date
of enactment,” which was June 30, 2016. Pub. L. No. 114-185, § 6,
130 Stat. 538, 545.
7

13a
to “inter-agency or intra-agency memorandums or letters that would not be available by law to a party other
than an agency in litigation with the agency. . . . ”
5 U.S.C. § 552(b)(5).
This exemption has been interpreted as coextensive
with all civil discovery privileges. NLRB v. Sears,
Roebuck & Co., 421 U.S. 132, 149 (1975). The particular privilege the Services have claimed here is the “deliberative process privilege,” which permits agencies to
withhold documents “to prevent injury to the quality of
agency decisions by ensuring that the frank discussion
of legal or policy matters in writing, within the agency,
is not inhibited by public disclosure.” Maricopa Audubon Soc. v. U.S. Forest Serv., 108 F.3d 1089, 1092
(9th Cir. 1997) (Maricopa II) (quoting NLRB v. Sears,
Roebuck & Co., 421 U.S. 132, 150-51 (1975) (internal quotations omitted)).
Because FOIA is meant to promote disclosure, its exemptions are interpreted narrowly. Assembly of Cal.
v. U.S. Dep’t of Commerce, 968 F.2d 920 (9th Cir. 1992)
(citing Dep’t of Justice v. Julian, 486 U.S. 1, 8 (1988)).
The dissent argues that because the FOIA Exemption 5
privileges “inter-agency or intra-agency memorandums
or letters” and because the documents at issue here
were transmitted between agencies, they should be exempt from disclosure. We agree that the documents
must be considered in the context in which they were
produced, Sears, Roebuck & Co., 421 U.S. at 138. But
a document’s origins as part of the inter-agency consultation process between the EPA and the Services, see
50 C.F.R. § 402.14(a), only relate to a threshold requirement for applying Exemption 5—that the document is

14a
an “inter-agency or intra-agency memorandum.” Beyond that threshold, “to qualify [under the deliberative
process privilege] a document must thus satisfy two conditions: its source must be a Government agency and it
must fall within the ambit of a privilege against discovery under judicial standards that would govern litigation
against the agency that holds it.” Dep’t of Interior v.
Klamath Water Users Protective Ass’n, 532 U.S. 1, 8
(2001).
This circuit has defined the ambit of the deliberative
process privilege under Exemption 5 narrowly. It “applies only if disclosure of the materials would expose an
agency’s decision-making process in such a way as to
discourage candid discussion within the agency and
thereby undermine the agency’s ability to perform its
functions.” Kowack, 766 F.3d at 1135 (quoting Maricopa II, 108 F.3d at 1093) (internal quotations omitted)
(finding the Forest Service had not sufficiently demonstrated that disclosure of redacted portions of an intraagency investigative report regarding alleged employee
misconduct contained more than factual, i.e., deliberative, content).
The Services therefore bear the burden of proving
that the documents they maintain should be exempt
from disclosure are both “pre-decisional and deliberative.” Carter v. Dep’t of Commerce, 307 F.3d 1084,
1089 (9th Cir. 2002) (internal quotations omitted). 8

In Cooling Water Intake Structure Coal. v. EPA, 898 F.3d 173
(2d Cir. 2018), amended, 2018 WL 4678440 (2d. Cir. Sep. 27, 2018),
the plaintiffs asked to supplement the certified record with what appear to be the same documents at issue in this case. 2018 WL
3520398 at *7 n.9. Finding “nothing in the privilege log that would
8

15a
These pre-decisional and deliberative prongs are analyzed separately although the issues they address overlap. Assembly of Cal., 986 F.2d at 920. For the reasons explained below, we conclude that the December
2013 draft jeopardy biological opinions (NMFS 44516.1
and FWS 252), the accompanying statistical table
(NMFS 61721), the accompanying instructional documents (NMFS 5597.1, NMFS 7544.2, NMFS 37695,
NMFS 37667, NMFS 14973.1), and the March 2014 RPA
(FWS 555) were not both pre-decisional and deliberative. We therefore AFFIRM in part the district court’s
summary judgment order requiring the production of
these records. There is, however, sufficient support
for concluding the December 2013 RPAs (FWS 279, 308)
and the April 2014 draft jeopardy opinion (NMFS
disturb the ‘presumption of regularity’ afforded to the agencies’ certified record,” id. (citing Citizens to Pres. Overton Park, Inc. v.
Volpe, 401 U.S. 402, 415 (1971)), the Second Circuit denied this motion in a footnote, noting that the EPA had “produced a privilege log
that adequately describes the nature of [the requested documents]
and their rationale for classifying [them] as deliberative and therefore privileged,” and thus the Agency had satisfied their obligation
under Fed. R. Civ. P. 26(b)(5)(A)(ii) (requiring that a party claiming
privilege describe the privileged documents in a manner that allowed other parties to assess the claim). Cooling Water Intake
Structure Coal., 2018 WL 4678440 at *7 n.9. Cooling Water Intake
did not, however, analyze whether the reasons given in the privilege
log for the claims of privilege were justified. Instead, the Second
Circuit applied a “presumption of regularity” regarding the administrative record, not applicable here. It did not address whether
the EPA had carried a burden of showing that the documents at issue were both deliberative and predecisional, as we must do to determine whether they should be disclosed under FOIA, Carter,
307 F.3d at 1089. Given the different burdens, we do not believe
that the footnote in that decision suggests a different result than the
one we reach.

16a
5427.1) were pre-decisional and deliberative. Because
these records satisfy the standard for non-disclosure under FOIA Exemption 5, we REVERSE the district court’s
order for their production.
a.

Pre-decisional

A document is pre-decisional if it is “prepared in order to assist an agency decision-maker in arriving at his
decision, and may include recommendations, draft documents, proposals, suggestions, and other subjective documents which reflect the personal opinions of the writer
rather than the policy of the agency.” Assembly of Cal.,
968 F.2d at 920 (citation and internal quotations omitted). The agency requesting the exemption “must identify a specific decision to which the document is predecisional.” Maricopa II, 108 F.3d at 1094.
Here, the Services argue that the December 2013 and
April 2014 jeopardy opinions, the three RPAs, and all of
the other statistical and instructional documents predate the May 2014 “no jeopardy” opinion and are thus
pre-decisional as to that final opinion.
1.

April 2014 NMFS Draft Biological
Opinion

We agree that the April 2014 draft jeopardy opinion
(NMFS 542.71) was prepared as an internal agency document. It was only circulated between groups of NMFS
employees, and there is nothing in the record that indicates that the jeopardy finding was communicated even
informally to the EPA. Where one document reflects
an earlier position of the agency—as the April 2014 draft
jeopardy opinion does here when compared with the
May 2014 final no jeopardy opinion—it is pre-decisional
as to the issues addressed in both. See Nat. Wildlife

17a
Fed., 861 F.2d at 1120 (documents that were “working
drafts” subject to revision are pre-decisional). In other
words, it does not appear to represent the conclusion of
the agency on the likely impact of the final March 2014
rule, but rather is an interim step, communicated only
internally within NMFS. The document expressed the
agency staff ’s initial opinion as to the rule. NMFS never
adopted that opinion as the agency’s; instead, the NMFS
ultimately joined the FWS in a final joint no jeopardy
opinion in May 2014 regarding the final March 2014 rule.9
2.

RPAs

We also agree that the December 2013 RPAs (FWS
279, 308) are pre-decisional because they appear to be
earlier drafts of the third, March 2014 RPA (FWS 555).
In other words, the December 2013 RPAs do not reflect
the FWS’ final position regarding the kinds of changes
the November 2013 version of the rule needed in order
to comply with the ESA. The December 2013 RPAs, but
not the March 2014 RPA, are therefore pre-decisional.

We recognize the difference between the NMFS April 2014
“jeopardy opinion” and the NMFS and FWS joint May 2014 “nojeopardy” opinion, both of which address the March 2014 proposed
EPA rule. The cover letter transmitting the final “no jeopardy”
opinion of May 19, 2014 explains that its opinion is based in part on
“the Services’ interpretations of that rule as agreed upon by EPA on
April 8, 2014.” These interpretations—obviously considered of key
importance to the Services—were agreed to by EPA during the same
time frame that NMFS was preparing its earlier jeopardy opinion,
which it ultimately decided not to send. Beyond this, we do not
know why NMFS decided to join the final “no jeopardy” opinion after its staff earlier proposed reaching the opposite conclusion. But
“back-and-forth” debate is precisely the type of deliberative process
that Exemption 5 protects.
9

18a
3.

2013 Draft Biological Opinions

We disagree with the Services, however, that the December 2013 draft jeopardy opinions (NMFS 44516.1;
FWS 252) are pre-decisional. These two jeopardy opinions represent the final view of the Services regarding
the then-current November 2013 proposed rule; the May
2014 no jeopardy opinion represents the final view of
Services regarding the later March 2014 revised, proposed rule.
Both the Supreme Court and this court have held
that the issuance of a biological opinion is a final agency
action. Bennet v. Spear, 520 U.S. 154, 178 (1997); Ctr.
for Biological Diversity v. U.S. Fish & Wildlife Serv.,
450 F.3d 930, 940 (9th Cir. 2006). So our focus is on
whether each document at issue is pre-decisional as to a
biological opinion, not whether it is pre-decisional as to
the EPA’s rulemaking. Although the December 2013
biological opinions in this case were not publicly issued,
they nonetheless represent the Services’ final views and
recommendations regarding the EPA’s then-proposed
regulation. The purpose of the December 2013 jeopardy biological opinions and their accompanying documents was not to advise another decision-maker higher
up the chain about what the Service’s position should be
on the proposed rule. Instead, these opinions, created
pursuant to an ESA Section 7 formal consultation, contain the final conclusions by the final decision-makers—
the consulting Services—regarding whether a proposed
regulation will harm protected species and habitat.
See 50 C.F.R. 402.14(h)(3) (a biological opinion is “[t]he
Service’s opinion on whether the action is likely to jeopardize the continued existence of listed species. . . . ”)
(emphasis added).

19a
Where, as here, a document is created by a final
decision-maker and represents the final view of an entire agency as to a matter which, once concluded, is a
final agency action independent of another agency’s use
of that document, it is not pre-decisional. Cf. Maricopa
II, 108 F.3d at 1094 (Forest Service’s internal investigative report was prepared to advise the Chief of the Forest Service on how the agency should respond to misconduct allegations and was thus pre-decisional); Kowack v.
U.S. Forest Serv., 766 F.3d 1130, 1135 (9th Cir. 2014)
(investigative reports prepared by the Forest Service’s
Misconduct Investigations program manager were meant
to assist the agency in making a final decision regarding how to deal with an employee and were thus predecisional).
The record reflects the finality of the conclusions in
the December 2013 draft jeopardy opinions. The documents had been approved by final decision-makers at
each agency: the email correspondence in the record indicates Gary Frazer, the Assistant Director for Ecological Services at FWS who was responsible for overseeing and administering ESA consultations, made final
edits to the FWS Service December 9, 2013 jeopardy
opinion and that the document was awaiting his autopen
signature. NMFS meanwhile was preparing “talking
points” for its legislative affairs staff and preparing to
release the drafts to the public.
Moreover, the Services’ own account indicates that
the EPA made changes to its proposed regulations after
December 2013—that is, after both Services’ jeopardy
opinions were completed and partially transmitted to

20a
the EPA—and that the “final” May 2014 Biological Opinion reflected the Services’ opinion concerning the EPA’s
later revised proposed regulation.
The fact that the December 2013 jeopardy opinions
predated the later no jeopardy opinion does not render
them predecisional. “[M]aterial which predate[s] a decision chronologically, but did not contribute to that decision is not pre-decisional in any meaningful sense.”
Assembly of Cal., 968 F.2d at 921 (census data prepared
by the Department of Commerce “solely for the purpose
of post-decision dissemination” if the Secretary decided
to adjust the census was not pre-decisional merely because it predated the Secretary’s decision). The December 2013 jeopardy opinions pre-date the May 2014
no jeopardy opinion, but address and thus make final
conclusions about a different version of the EPA’s rule.
These earlier opinions therefore were not pre-decisional
with respect to the later opinion, which addressed a different proposed rule.
4.

Other Documents

We disagree with the Services’ arguments that the
remaining documents, which accompanied the December
2013 draft jeopardy opinions, were pre-decisional because
they were either “modified” or excluded from the May
2014 final no jeopardy opinion. These documents—1) a
statistical table showing estimated aggregate effects of
cooling water intake structures on ESA-protected species (NMFS 61721); 2) several instructional documents
for cooling water intake structure operators detailing
how to abate the harmful impacts of those structures on
specific species (NMFS 5597.1, “Abalone Measures”),
(NMFS 7544.2, “Andromous Salmonid Measures”),
(NMFS 37695, “Pinniped Measures”), and (NMFS

21a
37667, “Sea Turtle Requirements”); and 3) “Terms and
Conditions” that operators of cooling water intake structures must follow in implementing the RPAs (NMFS
14973.1)—were largely instructional, and intended to
explain best practices for mitigating the projected, harmful effects of the November 2013 proposed rule. They
were not early-stage recommendations for mitigating
the impacts of the revised, March 2014 rule, and are thus
not pre-decisional as to the May 2014 no jeopardy opinion the Services issued in response to that later rule.
b.

Deliberative

To shield documents from disclosure under Exemption 5, the Services must not only show that they are predecisional, but also that they are deliberative. Maricopa II, 108 F. 3d at 1093. Examples of “deliberative”
materials include “recommendations, draft documents,
proposals, suggestions, and other subjective documents
which reflect the personal opinions of the writer rather
than the policy of the agency” or that “inaccurately reflect or prematurely disclose the views of the agency.”
Nat’l Wildlife Fed’n v. U.S. Forest Serv., 861 F.2d 1114,
1118-19 (9th Cir. 1988) (quoting Coastal States Gas Corp.
v. Dep’t of Energy, 617 F.2d 854, 866 (D.C. Cir. 1980)).
With three exceptions noted below, the contested documents here are not “deliberative.”
The Supreme Court has cautioned against relying on
a “wooden” facts-versus-opinions dichotomy for determining whether a document is deliberative. Assembly
of Cal., 968 F.2d at 921 (citing EPA v. Mink, 410 U.S.
73, 91 (1973)). Accordingly, this circuit applies a “functional approach,” which considers whether the contents
of the documents “reveal the mental processes of the
decision-makers” and would “expose [the Services’]

22a
decision-making process in such a way as to discourage
candid discussion within the agency and thereby undermine [their] ability to perform [their] functions.” Id. at
920-21.
After conducting a de novo review of the documents,
we conclude that only three—the December 2013 RPAs
(FWS 279, 308) and April 2014 draft jeopardy opinion
(NMFS 5427.1)—could reveal inter- or intra- agency deliberations and are thus exempt from disclosure.
The Services argue that all the documents at issue
are deliberative because they were created as part of a
“lengthy and complicated” consultation process between
the Services and the EPA about the EPA’s water cooling
intake structures rule—a process during which many
drafts of biological opinions and other documents were
circulated intra-agency and inter-agency and “commented
upon by others, revised, and recirculated for further discussion.” According to the Services, the Sierra Club’s
request is intended to “uncover any discrepancies between the findings, projection and recommendations”
between jeopardy opinions created by “lower-level” Services personnel and the final joint no jeopardy opinion.
(quoting Nat’l Wildlife Fed’n, 861 F.2d at 1122).
The underlying concern in National Wildlife Federation was that releasing “working drafts” and comments
on Forest Plans and Environmental Impact Statements
(EISs) prepared by “lower-level” Forest Service employees would “reveal the mental processes” that went
into choosing and publishing a final Forest Plan and
EIS. Id. at 1119-22. In other words, a reader with access to both these working drafts and the final plan could
“probe the editorial and policy judgment of the decisionmakers” who selected and issued the final plan. Id.

23a
The draft Forest Plans in National Wildlife Federation were a collection of “tentative opinions and recommendations of Forest Service employees”; the draft
EISs compared these alternative Forest Plan proposals,
thereby revealing the agency’s deliberations in choosing
a final plan. Id. at 1121-22. This understanding of
“deliberative”—meaning reflecting the opinions of individuals or groups of employees rather than the position
of an entire agency—is shared among the circuits. See,
e.g., Moye, O’Brien, Hogan & Pickert v. Nat’l R.R. Passenger Corp., 376 F.3d 1270, 1279 (11th Cir. 2004) (Amtrak
OIG “audit work papers and internal memoranda” that
“lower level staff ” played a “significant role” in authoring were deliberative); Grand Cent. Partnership, Inc. v.
Cuomo, 166 F.3d 473, 483 (2d Cir. 1999) (emails between
HUD employees that discussed their personal opinions
on an investigation into misconduct by a HUD funding
recipient were deliberative); Providence Journal Co. v.
U.S. Dep’t of Army, 981 F.2d 552, 560 (1st Cir. 1992) (Inspector General Reports that were “essential to the consultative process within the agency” were deliberative)
(emphasis added)).
The dissent makes a similar point about the ongoing
nature of the consultative process to argue that documents exchanged between the Services and the EPA
during that process are protected inter-agency memoranda. It cites to the ESA Section 7 regulations to
point out that the Services “shall make available to the
Federal agency the draft biological opinion for the purpose of analyzing the reasonable and prudent alternatives.” 50 C.F.R. § 402.14(a). The agency may in turn
submit comments to the Service regarding the draft biological opinion within a given window of time, at which

24a
point the Service may receive an extension on the time
for issuing the opinion. Id.
Nothing in the documents at issue here indicates
whether the EPA sent these types of comments to the
Services, how those comments impacted the Services’
jeopardy/no jeopardy conclusion, or anything else about
what the substance of those comments might have been.
Such documents would likely satisfy the two aforementioned conditions of 1) being an inter-agency memorandum that 2) fell within the ambit of deliberative process.
In the case before the court, we know that the draft
opinion was transmitted piecemeal to the EPA, the Services and the EPA agreed to extend the time frame for
the consultation, and that “[u]ltimately based on changes
to the regulation, the Services’ final conclusion was that
the regulation”—the final version—“was not likely to
jeopardize the continued existence of listed species nor
likely to destroy or adversely modify critical habitat.”
(emphasis added). The fact that the decision to revise
the rule after the jeopardy finding was the result of additional back-and-forth between the Services and the
EPA—deliberative discussions that are not memorialized in the documents before us—does not render the
December 2013 opinions or accompanying documents
pre-decisional or deliberative as to the Services’ opinion
about the November 2013 version of the EPA regulation
or as to the Services’ later conclusion about a different
version of the rule.

25a
1.

2013 Draft Biological Opinions and
Other Documents

After reviewing the documents in this case in camera
to make a de novo determination, we conclude that neither the December 2013 draft jeopardy opinions (NMFS
44516.1; FWS 252), nor the accompanying statistical and
instructional documents (NMFS 5597.1, NMFS 7544.2,
NMFS 37695, NMFS 37667, NMFS 14973.1) were prepared by low-level officials, or contain merely tentative
findings. These are final products that reflect the agencies’ findings on the jeopardy posed by the November
2013 proposed rule, and their recommendations for mitigating the harmful impacts of that rule.
We note that the documents do not contain line edits,
marginal comments, or other written material that expose any internal agency discussion about the jeopardy
finding. Nor do these documents contain any insertions or writings reflecting input from lower level employees.10 The two December 2013 opinions both state
they were prepared on behalf of the entire agency and
represent that agency’s opinion. And the record shows
that preparations were being made for the NMFS opinion (NMFS 44516.1), as is, to be publicly “roll[ed] out”
and published in the administrative record; the FWS
opinion (FWS 252), which includes its agency’s seal/
header, had received final edits from a senior official and
was just awaiting his autopen signature.

The NMFS December 2013 jeopardy opinion (NMFS 44516.1)
does contain two insertions that could possibly be editorial notes not
intended to be included in the final report. For that reason, we instruct the district court to redact these lines from that report.
10

26a
The only thing the December 2013 draft jeopardy
opinions have in common with the draft Forest Plans
and EISs in National Wildlife Federation is that they
were referred to as “draft” documents. But to treat
them similarly would ignore clear substantive distinctions. Unlike the documents in National Wildlife Federation, these opinions and accompanying documents
represent the final view of the Services on the likely impact of the then-proposed regulation. These final jeopardy opinions from December 2013 pertain to a different
rule and are not “earlier draft” versions of the no jeopardy opinion from May 2014; that later opinion addressed a new and different proposed rule. 11
Moreover, taking seriously our obligation to consider
the underlying purpose of the deliberative process privilege, these documents do not reveal more about the internal deliberative process that the Services went through
before issuing their joint May 2014 no jeopardy opinion
than what the Services themselves have already disclosed during this litigation: that the initial proposed
regulation resulted in final drafts of jeopardy opinions
in December 2013, that the EPA received portions of
those opinions and proposed a revised regulation at
some point after that, and that the Services ultimately
issued a no jeopardy opinion for that revised, proposed
regulation. Nor do the December 2013 jeopardy opinions reveal either the Services’ internal deliberative processes that lead to reaching those opinions or the EPA’s
internal deliberative process that resulted in revising
the draft regulation. Cf. Assembly of Cal. v. U.S. Dep’t
As discussed earlier, the NMFS did prepare a jeopardy opinion
concerning the March 2014 rule, which was pre-decisional as to the
final no jeopardy joint opinion on that rule.
11

27a
of Comm. 968 F.2d 916, 922-23 (9th Cir. 1992) (disclosing
final census figures would not reveal the deliberative
process in reaching those figures, particularly when the
method used to generate the data was already a matter
of public record).
Nor would releasing these opinions and accompanying documents allow a reader to reconstruct the “mental
processes” that lead to the production of the May 2014
no jeopardy opinion by allowing one to compare an early
draft of that opinion to the final opinion. There is no
later draft of the Services’ opinion regarding the November 2013 version of the rule that a discerning reader
could compare to the two December 2013 opinions requested here.
Again, the statistical table (NMFS 61721) and the instructional documents and terms and conditions (NMFS
5597.1, NMFS 7544.2, NMFS 37695, NMFS 37667, NMFS
14973.1) summarize the Services’ best practices and recommendations for mitigating environmental harm to
certain species, and effectively monitoring the welfare
of certain protected species should they appear in the
vicinity of a water cooling intake structure. They do
not reveal any internal discussions about how those recommendations were vetted and are thus not deliberative.
2.

RPAs

Our analysis regarding the December 2013 RPAs
(FWS 279, 308) is different from our analysis concerning
the December 2013 Draft Biological Opinions and Other
Documents because, as discussed above, they do appear
to be successive drafts of the Services’ recommendations for the November 2013 proposed rule. And comparing these drafts would shed light on FWS’ internal

28a
vetting process. Thus, considering de novo whether
the Services have carried their burden in showing that
these documents are deliberative, we find that they have
done so.
By comparison, disclosure of only the March 2014
RPA (FWS 555) will offer no insights into the agency’s
internal deliberations. It appears to be the final version in a progression of agency recommendations about
how to amend the November 2013 proposed rule. The
Services have offered no evidence that there were any
subsequent versions of this RPA addressing the November 2013 proposed rule. The March 2014 RPA is therefore not deliberative.
3.

April 2014 NMFS Draft Biological
Opinion

Finally, we agree with the Services that the NMFS
April 2014 draft jeopardy biological opinion is deliberative. As discussed above, it addresses the revised rule
that the EPA proposed in March 2014. A reader could
thus conceivably reconstruct some of the deliberations
that occurred between the April 2014 and May 2014
opinions by comparing the two. Additionally, the Acting Assistant Administrator for NMFS testified in an affidavit provided to the district court that this draft of the
jeopardy opinion was only circulated internally between
one employee and a group of other lower-level employees.
The April 2014 draft jeopardy opinion is therefore deliberative and subject to Exemption 5.
IV.

CONCLUSION

For the foregoing reasons the district court’s order
to produce the December 2013 draft jeopardy biological
opinions (NMFS 44516.1 and FWS 252), the March 2014

29a
RPA (FWS 555), and the remaining statistical and instructional documents (NMFS 5597.1, NMFS 61721, NMFS
7544.2, NMFS 37695, NMFS 37667, NMFS 14973.1) is
AFFIRMED because the record shows that these materials are not both pre-decisional and deliberative and
therefore not exempt under § 522(b)(5) of FOIA, Exemption 5.
The district court’s order to produce the December
2013 RPAs (FWS 279, 308) and the April 2014 draft jeopardy opinion (NMFS 5427.1) is REVERSED because
these materials are both pre-decisional and deliberative
and thus exempt from disclosure under FOIA Exemption 5. The parties agree that reversal would require
the district court to perform a segregability analysis on
remand. We instruct the district court to perform that
analysis.
The case is REMANDED for further proceedings consistent with this opinion.

30a
WALLACE, Circuit Judge, concurring in the result in
part and dissenting in part:
I concur in the result reached by the majority as to
the April 2014 draft opinion (NMFS 5427.1) and the December 2013 RPAs (FWS 279, 308). I dissent from the
result reached by the majority as to the rest of the documents. I respectfully disagree with my colleagues
that the deliberative process privilege does not protect
the December draft opinions (NMFS 44516.1, FWS 252)
and other documents.
The majority overlooks the “context of the administrative process which generated” the December draft
opinions. NLRB. v. Sears, Roebuck & Co., 421 U.S.
132, 138 (1975). They were part of an inter-agency consultation process. 50 C.F.R. § 402.14(a). The regulations governing that process make clear that the purpose of agency review is to allow the Services to consider
changes to the draft opinion based on the agency’s comments. Specifically, the regulations forbid the Services
from issuing the final opinion before the agency has had
time to comment on the draft and build in time for the
Services to revise a draft opinion to incorporate or respond
to any agency comments. See 50 C.F.R. § 402.14(g)(5)
(Services cannot issue the final opinion “prior to the
45-day or extended deadline while the draft is under [the
agency’s] review” and if the agency submits comments
within 10 days of the final opinion deadline, the Services
are entitled to a 10-day deadline extension). The preamble to the regulations explains that the “release of draft
opinions to Federal agencies . . . facilitates a more
meaningful exchange of information,” “may result in the
development and submission of additional data, and the
preparation of more thorough biological opinions,” and

31a
“helps ensure the technical accuracy of the opinion.”
Interagency Cooperation—Endangered Species Act of
1973, 51 Fed. Reg. 19,926, 19,952 (June 3, 1986). Therefore, the regulations governing formal consultations set
up a process by which the Services may receive feedback
from the agency on draft opinions.
Moreover, a formal consultation may involve not only
the Services making a jeopardy decision, but also a decision about what alternative actions are reasonable and
prudent, so-called RPAs. The Services and the agency
“work[ ] closely” on the “development of [RPAs]” contained in a jeopardy opinion. Id. The “provision to review draft biological opinions” provides the necessary
“exchange of information for the development of [RPAs].”
Id. The Services “will, in most cases, defer to the Federal agency’s expertise and judgment” as to whether a
draft RPA is feasible, but if the Services disagree, the
Services make the ultimate call. Id. Thus, even though
the Services have discretion as to whether to accept the
EPA’s comments, the purpose of agency review is to
seek the agency’s advice on the draft opinion. Seeking
comments on a document presupposes the ability to
make changes to it, showing it is pre-decisional. It also
shows the deliberative nature of the process. Accordingly, the administrative context shows that draft opinions are generally both pre-decisional and deliberative.
A quick look at the record in this case dispels any doubt
that the December draft opinions are pre-decisional and
deliberative. The FWS draft opinion requests that the
EPA “provide any comments” and states that the FWS
would need about ten days after receiving comments, assuming they are not substantial, to issue the final opinion. Likewise, the government submitted declarations

32a
of two management-level Service employees stating that
the drafts were subject to revision. Gary Frazer, assistant director of the FWS, stated that both draft opinions “were subject to internal review within FWS and
the Department of the Interior and consultation with
the EPA.” Samuel D. Rauch, an administrator at the
NMFS, stated that by transmitting a draft opinion to
the EPA, the “NMFS is not rendering a final decision”
and the document “remains a draft and is subject to
change until final signature.”
The majority asserts that there is nothing in the record that “indicates whether the EPA sent . . . comments to the Services” on the December draft opinions.
Of course, there is not. As the majority observes, the
Services “never formally transmitted” the drafts to the
EPA. The EPA could not mark up a document it never
received. The record, however, is clear that the EPA
and the Services engaged in extensive discussions about
the draft opinions before and after the December 6 deadline. As the deadline approached, the Services decided
based on “internal review and interagency review in December” that “additional consultation [with the EPA]
was needed to better understand and consider the operation of key elements of EPA’s rule.” The EPA and the
Services “agreed[ ] that more work needed to be done
and agreed to extend the time frame for the consultation.” That the EPA and the Services jointly concluded
the draft opinions needed more work shows their predecisional and deliberative nature: the Services had
not made a final decision as of December and the deliberative process was ongoing.
The majority and Sierra Club argue that because the
December draft opinions were the Services’ “final” word

33a
on the November 2013 regulations, the opinions are
not pre-decisional. I disagree. The Services’ decision
would become final only “once the biological opinion is
issued.” Ctr. for Biological Diversity v. U.S. Fish &
Wildlife Serv., 450 F.3d 930, 940 (9th Cir. 2006); see also
Bennett v. Spear, 520 U.S. 154, 177-78 (1997). The majority’s observation that the December draft opinions
did not contribute to the Services’ later decision about
the March 2014 regulations is beside the point. The
draft opinions are pre-decisional as to the November
2013 regulations, which the EPA changed before finalizing. That the Services never gave their final word as
to those regulations does not strip the drafts of their
privileged status. A draft that “die[s] on the vine . . . .
is still a draft and thus still pre-decisional and deliberative.” Nat’l Sec. Archive v. CIA, 752 F.3d 460, 463
(D.C. Cir. 2014); see also Sears, 421 U.S. at 151 n.18
(privilege may apply even if documents “do not ripen
into agency decisions”).
The majority and Sierra Club contend that the December draft opinions are not deliberative because the
Services’ management had vetted them and they represented the view of the “entire” Services. But even if
true, those facts do not show that the drafts are not deliberative. It is well established that circulation of a
draft opinion to another agency does not change its privileged status, any more than circulation within the
agency. The Supreme Court has spoken decisively on
this point: “By including inter-agency memoranda in
Exemption 5, Congress plainly intended to permit one
agency possessing decisional authority to obtain written
recommendations and advice from a separate agency
not possessing such decisional authority without requiring that the advice be any more disclosable than similar

34a
advice received from within the agency.” Renegotiation Bd. v. Grumman Aircraft Eng’g Corp., 421 U.S.
168, 188 (1975). Here, the Services had decisional authority in preparing the opinions, but sought advice
from the EPA about the decision. Grumman Aircraft
teaches that is precisely the type of inter-agency process that Congress designed the privilege to protect.
The majority’s decision sets out a categorical rule
that the deliberative process privilege protects only documents “reflecting the opinions of individuals or groups
of employees rather than the position of an entire agency.”
This rule contravenes Grumman Aircraft, which acknowledged Exemption 5’s parity between inter- and intraagency drafts. 421 U.S. at 188. There the Supreme
Court explained, “Exemption 5 does not distinguish between inter-agency and intra-agency memoranda.” Id.
Unsurprisingly, the out-of-circuit cases the majority
cites provide no support for its ill-founded rule, much
less do they reflect that this view “is shared among the
circuits” as the majority claims. In each cited case, the
court concluded that the deliberative process privilege
protected the documents at issue. Moye, O’Brien,
O’Rourke, Hogan & Pickert v. Nat’l R.R. Passenger
Corp., 376 F.3d 1270, 1278 (11th Cir. 2004); Grand Cent.
P’ship, Inc. v. Cuomo, 166 F.3d 473, 483 (2d Cir. 1999);
Providence Journal Co. v. U.S. Dep’t of Army, 981 F.2d
552, 562-63 (1st Cir. 1992). Therefore, even if the majority is right that these cases show that “opinions of individuals or groups of employees” are generally deliberative, they do not support the contrary proposition that
“the position of an entire agency” can never be deliberative.

35a
Sierra Club makes much of the fact that “the Services typically include draft biological opinions in their
administrative records.” Again, even if true, the government’s waiver of privilege in some contexts does not
waive the privilege here, see Assembly of Cal. v. U.S.
Dep’t of Commerce, 968 F.2d 916, 922 n.5 (9th Cir. 1992),
a point that Sierra Club concedes.
Finally, Sierra Club argues that the Services’ draft
opinions are “significant, legally-mandated drafts, apart
from any number of internal or ‘working drafts.’ ” It
argues that they are “formal documents reflecting and
conveying the Services’ conclusions at a prescribed point
in the consultation process.” This argument reflects a
misunderstanding of the governing regulation. It does
not require draft opinions shared with the EPA to be
“significant” or to constitute a formal statement of the
Services’ conclusions. The regulation states that the
Services must, upon the agency’s request, “make available to the Federal agency the draft biological opinion
for the purpose of analyzing the [RPAs].” 50 C.F.R.
§ 402.14(g)(5). The regulation, however, does not provide that a draft opinion shared with an agency be at any
particular level of completion or approval. For example, nothing appears to preclude the EPA from requesting to see a draft at the beginning of the process. It
also does not require that the Services ever provide a
draft opinion to the EPA if the EPA does not request it.
Given that “Exemption 5 does not distinguish between
inter-agency and intra-agency” drafts, Grumman Aircraft, 421 U.S. at 188, a draft opinion sent to the EPA is
no more disclosable than a draft sent from one working
group within the Service to another.

36a
In conclusion, the administrative process that generated the draft opinions shows that they are pre-decisional
and deliberative. They are pre-decisional because they
do not reflect the Services’ final jeopardy and RPA decisions as to the November 2013 regulations. They are
deliberative because they are “part of the deliberative
process” by which the Services and the EPA consult on
those decisions. Nat’l Wildlife Fed’n v. U.S. Forest
Serv., 861 F.2d 1114, 1118 (9th Cir. 1988). I conclude
that the Services may withhold them.
The deliberative process privilege also protects the
other documents at issue in this case. Because the
NMFS never finalized or adopted the April draft jeopardy opinion (NMFS 5427.1), my analysis above applies
to it with equal force. The same is true for the three
draft RPAs (FWS 279, FWS 308, FWS 555), which were
part of never-finalized jeopardy opinions. In addition,
the Services should be able to withhold the four speciesspecific protective measures (NMFS 5597.1, NMFS
7544.2, NMFS 37695, NMFS 37667), the affected species table (NMFS 61721), and the terms and conditions
(NMFS 14973.1). The protective measures are earlier
versions of those included in the final opinion. Likewise, NMFS decided not to include the table in the final
opinion after deliberations among scientists. Finally,
NMFS staff circulated the terms and conditions internally as a possible precedent for a section of the final
opinion. In each case, the documents are privileged because disclosure would allow Sierra Club to “probe the
editorial and policy judgment of the decisionmakers” by
comparing the draft versions to what the Services finally
published. Nat’l Wildlife, 861 F.2d at 1122.

37a
In conclusion, I would reverse the district court’s judgment ordering production of all twelve documents and
instruct it to perform a segregability analysis on remand.1

The Second Circuit recently sustained the Services’ assertion of
the deliberative process privilege over the critical documents at issue in this case: the three draft biological opinions and the three
draft RPAs. Cooling Water Intake Structure Coal. v. EPA, 905 F.3d
49, 65 n.9 (2d Cir. 2018). The court held that the Services’ privilege
log “adequately describes the nature of the . . . requested documents and their rationale for classifying those documents as deliberative and therefore privileged.” Id. While we do not have the
privilege log’s descriptions of the documents, the Second Circuit described them as “draft documents produced by the Services during
consultation with the EPA.” Id. These key facts—that the documents were subject to change and that they reflect a joint deliberative process—are the basis for my dissent.
1

38a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 15-cv-05872-EDL
SIERRA CLUB, INC., PLAINTIFF
v.
UNITED STATES FISH AND WILDLIFE SERVICE,
ET AL., DEFENDANTS
Filed: July 24, 2017
ORDER FOLLOWING IN CAMERA REVIEW

Before the Court is Plaintiff Sierra Club, Inc.’s
(“Plaintiff ”) motion for summary judgment and Defendants National Marine Fisheries Service (“NMFS”) and
U.S. Fish and Wildlife Service’s (“FWS”) (collectively,
“Defendants”) cross-motion for summary judgment.
Plaintiff seeks disclosure of documents pursuant to the
Freedom of Information Act (“FOIA”). Following a
hearing on June 6, 2017, the Court ordered Defendants
to lodge sixteen documents with the Court for in camera
review. 1 For the reasons discussed below, the Court
finds that four are protected by the deliberative process
These documents were: NMFS 0.7.266.44516.1, FWS 252, FWS
279, FWS 308, FWS 555, NMFS 0.7.266.5427.1, NMFS 0.7.266.5597.1,
NMFS 0.7.266.7544.2, NMFS 0.7.266.37667, NMFS 0.7.266.37695,
NMFS 0.7.266.61721, NMFS 0.7.266.14973.1, NMFS 0.7.266.7544.3,
NMFS 0.7.266.44616.1, NMFS 0.7.266.45263.1, NMFS 0.7.266.45277.2
1

39a
privilege in their entirety; one is partially protected and
must be redacted and produced; and eleven are not protected and must be produced in their entirety.
I.

FACTUAL BACKGROUND

Industrial cooling water intake structures have the
potential to kill or harm fish and other organisms by impinging them on intake screens and entraining eggs and
larvae through the plants’ heat exchangers. Final Regulations To Establish Requirements for Cooling Water
Intake Structures at Existing Facilities and Amend Requirements at Phase I Facilities, 79 Fed. Reg. 48,300,
48,303 (Aug. 15, 2014) (to be codified at 40 C.F.R. pt. 122).
Accordingly, Section 316(b) of the Clean Water Act requires the Environmental Protection Agency (“EPA”)
to regulate the withdrawal of water from U.S. waters
through these structures in order to minimize the structures’ adverse environmental impact. 33 U.S.C. § 1326(b).
On April 20, 2011, the EPA proposed new Section
316(b) regulations intended to apply to more than one
thousand existing power plants and manufacturing facilities. Cooling Water Intake Structures at Existing Facilities and Phase I Facilities, 76 Fed. Reg. 22,174 (Apr.
20, 2011) (to be codified at 40 C.F.R. pt. 122). In order
to fulfill its obligations under Section 7 of the Endangered Species Act (“ESA”), 2 the EPA commenced informal consultation with Defendants in 2012 and formal
This Section requires federal agencies to consult with Defendants in order to ensure that their actions are “not likely to jeopardize
the continued existence” or “result in the destruction or adverse modification of habitat” of threatened or endangered species. 16 U.S.C.
§ 1536(a)(2). Following formal consultation, Defendants must prepare a written biological opinion containing Defendants’ conclusion
of either “jeopardy” (i.e., the finding that the agency action is likely
2

40a
consultation in 2013. Following several extensions (related in part to the October 2013 government shutdown),
Defendants and the EPA agreed that Defendants would
provide a draft biological opinion to the EPA by December 6, 2013 and the final biological opinion by December
20, 2013. Super Decl., Ex. 6 at 3.
On December 3, 2013, Defendants informed the EPA
that: (i) they still expected to complete the draft biological opinions by December 6, 2013; (ii) the opinions would
be “jeopardy opinions”; and (iii) Defendants planned to
include the draft biological opinions and related information in their administrative records, which document
the agency’s decisionmaking process and basis for the
agency’s decision. Super Decl., Ex. 7. NMFS completed its draft biological opinion on December 6, 2013,
and FWS completed its draft biological opinion on December 9, 2013 (together, the “December 2013 Biological Opinions”). See Dkt. 47 at n.4. However, Defendants did not transmit either biological opinion to the
EPA in December 2013. Instead, on December 17, 2013,
Defendants emailed the RPAs to the EPA, Super Decl.
¶ 13, Ex. 9, and provided other “portion[s] of the [draft]
biological opinion[s]” to the EPA thereafter. Super
Decl. ¶¶ 14, 31, Ex. 21.

to jeopardize the continued existence of a protected species or habitat) or “no jeopardy” (i.e., the finding that the agency action is not
likely to jeopardize the continued existence of a protected species or
habitat). If Defendants issue a jeopardy opinion, they must propose reasonable and prudent alternatives (“RPAs”) that the agency
can implement to avoid jeopardizing the species’ continued existence. 16 U.S.C. § 1536(b)(3)(A); 50 C.F.R. § 402.14(g)(8), (h)(3).

41a
On May 19, 2014, following extensive discussions with
the EPA, Defendants issued a joint final biological opinion. Super Decl., Ex. 10. Unlike the December 2013 Biological Opinions, this opinion was a “no jeopardy” opinion that concluded that the EPA’s Section 316(b) regulations were not likely to jeopardize the continued existence of listed species or destroy or adversely modify
their designated critical habitat. The EPA issued its
final regulations on May 19, 2014 and published them in
the Federal Register on August 15, 2014. 79 Fed. Reg.
at 48,300.
Shortly after the EPA published its final regulations,
various environmental groups, including Plaintiff, filed
petitions for review in six different circuits pursuant to
33 U.S.C. § 1369(b)(1), challenging the EPA’s “no jeopardy” biological opinion. Super Decl. ¶ 17. These petitions for review were eventually consolidated in the
Second Circuit as Cooling Water Intake Structure Coalition, et al. v. U.S. EPA, et al., No. 14-4645(L). Super
Decl. ¶ 16. On August 11, 2014, Plaintiff requested documents relating to the ESA Section 7 consultation from
Defendants. Super Decl., Exs. 1, 2. NMFS produced
responsive documents over the course of several months,
but withheld 2,916 documents in full and 1,536 documents
in part on the basis of deliberative process, attorney-client,
and work product privilege. Super Decl., Ex. 17. Similarly, FWS produced responsive documents over the
course of several months, but withheld 1,075 documents
in full and 347 documents in part on the basis of deliberative process, attorney-client, and work product privilege. Super Decl., Ex. 19.

42a
II.

PROCEDURAL HISTORY

Plaintiff initiated this action against NMFS on December 21, 2015, alleging that NMFS improperly withheld responsive documents on the basis of the deliberative process privilege. Plaintiff amended its complaint
to add FWS as a defendant on March 22, 2016. Plaintiff filed a motion for summary judgment on December
1, 2016, asking the Court to order Defendants to produce twenty-seven documents related to the ESA Section 7 consultation. Defendants filed their opposition
and cross-motion on February 13, 2017, arguing that
each of the requested documents was protected by the
deliberative process privilege. Plaintiff filed its opposition and reply on March 31, 2017, by which point twentyfive documents were in dispute. Defendants filed their
reply on May 5, 2017.
The hearing took place on June 6, 2017. During the
hearing, the Court ordered Defendants to lodge six documents—the December 2013 Biological Opinions and
four independent—for in camera review. It also ordered the Parties to meet and confer and submit a joint
statement regarding the documents that remained in
dispute. On June 13, 2017, the Parties provided a joint
statement listing the ten documents still in dispute and
requesting permission to lodge these ten documents for
in camera review. On June 23, 2017, the Court granted
the Parties’ request, and Defendants thereafter lodged
these documents with the Court.
III.

LEGAL STANDARD

FOIA provides the public with the right to access records from federal agencies. Upon receipt of a FOIA
request, a federal agency must disclose the requested

43a
records unless they fall within one of nine exemptions.
5 U.S.C. § 552(b)(1)-(9). The agency bears the burden
of proving that a requested record is exempt from disclosure. Id. § 552(a)(4)(B). Federal courts have jurisdiction to order a federal agency to disclose improperly withheld documents or to review documents in camera to determine if a claimed FOIA exemption applies.
5 U.S.C. § 552(a)(4)(B); Maricopa Audubon Soc’y v. U.S.
Forest Serv., 108 F.3d 1089, 1093 n.2 (9th Cir. 1997).
The fifth FOIA exemption, which permits nondisclosure of “inter-agency or intra-agency memorandums or
letters that would not be available by law to a party other
than an agency in litigation with the agency,” 5 U.S.C.
§ 552(b)(5), encompasses the deliberative process privilege. This privilege protects “documents reflecting advisory opinions, recommendations and deliberations comprising part of a process by which governmental decisions and policies are formulated.” Carter v. U.S. Dep’t
of Commerce, 307 F.3d 1084, 1089 (9th Cir. 2002) (quoting Dep’t of Interior v. Klamath Water Users Protective
Ass’n, 532 U.S. 1, 8 (2001).
The deliberative process privilege applies to documents that are both (i) pre-decisional and (ii) deliberative. A document is pre-decisional if it is “prepared in
order to assist an agency decisionmaker in arriving at
his decision, and . . . reflect[s] the personal opinions
of the writer rather than the policy of the agency.”
Carter, 307 F.3d at 1089. A record is deliberative if it
contains “recommendations, draft documents, proposals,
suggestions and other subjective documents that reflect
the personal opinions of the writer rather than the policy
of the agency.” Nat’l Wildlife Fed’n v. United States
Forest Serv., 861 F.2d 1114, 1118-19 (9th Cir.1988).

44a
The key question is “whether the disclosure of materials
would expose an agency’s decisionmaking process in such
a way as to discourage candid discussion within the agency
and thereby undermine the agency’s ability to perform
its functions.” Assembly of State of Cal. v. U.S. Dep’t
of Commerce, 968 F.2d 916, 920 (9th Cir. 1992).
“[C]ommunications containing purely factual material
are not typically within the purview of Exemption 5.”
Julian v. U.S. Dep’t of Justice, 806 F.2d 1411, 1419
(9th Cir. 1986), aff ’d 486 U.S. 1 (1988). Generally, factual information is not covered by the privilege because
the release of such information does not expose the deliberations or opinions of agency personnel. See Mink,
410 U.S. at 91 (refusing to extend Exemption 5 to “factual material otherwise available on discovery merely
[because] it was placed in a memorandum with matters
of law, policy, or opinion”). “The factual/deliberative distinction . . . [is] a useful rule-of-thumb favoring disclosure of factual documents, or the factual portions of
deliberative documents where such separation is feasible.” Assembly, 968 F.2d at 921. However, “even if
the content of a document is factual, if disclosure of the
document would expose the decision-making process itself to public scrutiny by revealing the agency’s evaluation and analysis of the multitudinous facts, the document would nonetheless be exempt from disclosure.”
Nat’l Wildlife Fed’n, 861 F.2d at 1119.
Several cases have considered whether documents
related to ESA Section 7 consultations fall within the deliberative process exemption. See Desert Survivors v.
US Dep’t of the Interior, No. 16-CV-01165-JCS, 2017 WL
475281 (N.D. Cal. Feb. 6, 2017); Our Children’s Earth
Foundation v. National Marine Fisheries Service, No.

45a
14-4365 SC, 14-1130 SC, 2015 WL 4452136 (N.D. Cal.
July 20, 2015); Nw. Envtl. Advocates v. U.S. E.P.A., No.
CIV 05-1876-HA, 2009 WL 349732, at *7 (D. Or. Feb. 11,
2009); Greenpeace v. Nat’l Marine Fisheries Serv.,
198 F.R.D. 540 (W.D. Wash. 2000). These cases consistently require production of ESA Section 7 documents
that are “relatively polished drafts.” Nw. Envtl. Advocates, 2009 WL 349732, at *7; see also id. (drafts that
“lay out the law applicable to the decisions at hand, discuss the relevant science, and apply the law to that science” not protected); Desert Survivors, 2017 WL 475281
at *14 (“preliminary drafts” not protected because disclosure would not have chilling effect on agencies); Greenpeace, 198 F.R.D. at 543. (“[I]nformation that does not
disclose the deliberative process, communications unrelated to the formulation of law or policy, and routine reports are not shielded by the privilege.”).
However, “documents express[ing] preliminary staff
views or tentative opinions” are protected from disclosure. Nw. Envtl. Advocates, 2009 WL 349732, at *8;
see id. at *7 (documents reflecting “internal discussions”
and “back-and-forth/give-and-take” are protected); Desert Survivors, 2017 WL 475281 at *14 (because disclosure of preliminary staff views or tentative opinions
“might chill speech,” documents expressing them are
protected); Our Children’s Earth Foundation, 2015 WL
4452136 at *5 (drafts that “reflect the interpretations of
that scientific information by staff and scientists, thus
reflecting their personal opinions on the science” are
protected).

46a
III.
A.

DISCUSSION
Documents Lodged on June 13, 2017

As discussed in more detail below, of the six documents that Defendants lodged for in camera review on
June 13, 2017, the Court finds that one is protected and
five are not protected and must be disclosed.
1.

December 6, 2013 Draft Biological Opinion
(NMFS 0.7.266.44516.1): Not Protected

This document is a 289-page draft jeopardy biological
opinion that describes the EPA’s proposed changes to
Section 316(b) of the Clean Water Act, the new requirements for owner/operators of industrial cooling water
intake structures, and the location of affected structures. It also evaluates the direct and indirect effects
that the EPA’s proposed action would have on ESAlisted species and their habitats. The document is a “relatively polished draft.” Nw. Envtl. Advocates, 2009 WL
349732, at *7. It contains only two comments in the
margins, neither of which reveals the decisionmaking process of NMFS personnel. See Assembly of State of Cal.,
968 F.2d at 920 (“A predecisional document is a part of
the ‘deliberative process,’ if the disclosure of [the] materials would expose an agency’s decisionmaking process.”).
Accordingly, it is not exempt from disclosure under the deliberative process privilege. See Greenpeace, 198 F.R.D.
at 543 (“[I]nformation that does not disclose the deliberative process . . . [is] not shielded by the privilege.”).
2.

December 9, 2013 Draft Biological Opinion
(FWS 252): Not Protected

This document is a 72-page draft jeopardy biological
opinion that is similar to the NMFS December 6, 2013
draft Biological Opinion, but it omits several sections.

47a
The document is a “relatively polished draft.” Nw. Envtl
Advocates, 2009 WL 349732, at *7. It contains no subjective comments, recommendations, or opinions,. Accordingly, it is not exempt from disclosure under the deliberative process privilege. See Greenpeace, 198 F.R.D.
at 543.
3.

December 17, 2013 RPAs (NMFS 0.7.266.
44616.1): Protected

This document is a 4-page RPA that describes a
course of action by which the EPA could avoid adversely
affecting protected species and habitats. It includes
multiple comments, modifications, and additions of language by NMFS personnel that reflect their “internal
discussions” and “back-and-forth/give-and-take [that is]
protected by the deliberative process privilege.” Nw.
Envtl. Advocates, 2009 WL 349732, at *7. Because the
comments appear throughout the entirety of this brief
document, they are not reasonably segregable. See Nat’l
Wildlife Fed’n, 861 F.2d at 1119. Defendants may withhold this document from production.
4.

December 17, 2013 RPAs (FWS 279):
protected

Not

This document is also 4-page RPA that describes an
alternative course of action by which the EPA could
avoid adversely affecting protected species and habitats. It contains no subjective comments, recommendations, or opinions, and is a “relatively polished draft.”
Nw. Envtl. Advocates, 2009 WL 349732, at *7. Accordingly, it is not exempt from disclosure under the deliberative process privilege. See Greenpeace, 198 F.R.D.
at 543.

48a
5.

December 18, 2013 FWS RPAs (FWS 308):
Not Protected

This document is a 3-page RPA that describes an alternative course of action by which the EPA could avoid
adversely affecting protected species and habitats. It
contains no subjective comments, recommendations, or
opinions, and is a “relatively polished draft.” Nw. Envtl.
Advocates, 2009 WL 349732, at *7. Accordingly, it is
not exempt from disclosure under the deliberative process privilege. See Greenpeace, 198 F.R.D. at 543.
6.

March 6, 2014 FWS RPAs (FWS 555):
Protected

Not

This document is a 2-page RPA that that describes
an alternative course of action by which the EPA could
avoid adversely affecting protected species and habitats. It contains no subjective comments, recommendations, or opinions, and is a “relatively polished draft.”
Nw. Envtl. Advocates, 2009 WL 349732, at *7. Accordingly, it is not exempt from disclosure under the deliberative process privilege. See Greenpeace, 198 F.R.D.
at 543.
B.

Documents Lodged on June 27, 2017

As discussed in more detail below, of the ten documents that Defendants lodged for in camera review on
June 27, 2017, three are protected, one is partially protected, and six are not protected and must be disclosed.
1.

April 4, 2014 Draft Biological Opinion
(NMFS 0.7.266.5427.1): Not Protected

This document is a 334-page draft jeopardy biological
opinion. Like the December 6, 2013 Biological Opinion, it describes the EPA’s proposed changes to Section

49a
316(b) of the Clean Water Act, the new requirements for
owner/operators of industrial cooling water intake structures, the location of affected structures, and the direct
and indirect effects that the EPA’s proposed action would
have on protected species and their habitats. The document is a “relatively polished draft.” Nw. Envtl Advocates, 2009 WL 349732, at *7. It contains no subjective
comments, recommendations, or opinions,. Accordingly,
it is not exempt from disclosure under the deliberative
process privilege. See Greenpeace, 198 F.R.D. at 543.
2. October 21, 2013 Abalone Measures (NMFS
0.7.266.5597.1): Not Protected

This 2-page document describes steps that owner/
operators must take if abalone, an endangered species,
is affected by their cooling water intake structures. It
contains no subjective comments, recommendations, or
opinions, and is a “relatively polished draft.” Nw. Envtl.
Advocates, 2009 WL 349732, at *7. Accordingly, it is
not exempt from disclosure under the deliberative process privilege. See Greenpeace, 198 F.R.D. at 543.
3.

Anadromous Salmonid Measures (NMFS
0.7.266.7544.2): Not Protected

This 15-page document is entitled “Anadromous Salmonid Requirements.” It provides criteria and guidelines to be utilized by owner/operators in the development of downstream migrant fish screen facilities for
hydroelectric, irrigation, and other water withdrawal
projects. The document includes sections on screen design and hydraulics, site conditions, structure placement,
screen material, and debris management. It contains
no subjective comments, recommendations, or opinions,

50a
and is a “relatively polished draft.” Nw. Envtl. Advocates, 2009 WL 349732, at *7. Accordingly, it is not exempt from disclosure under the deliberative process
privilege. See Greenpeace, 198 F.R.D. at 543.
4.

Salmonids, Larval Fish, Sea Turtles, Abalone,
and Corals Measures (NMFS 0.7.266.7544.3):
Protected

This 3-page document lists the steps that owner/
operators must follow if salmonids, larval fish, sea turtles, abalone, or corals may be affected by a cooling water intake structure. It is a preliminary draft with
notes, comments, and highlighting that reflect “internal
discussions” and “back-and-forth/give-and-take [that is]
protected by the deliberative process privilege.” Nw.
Envtl. Advocates, 2009 WL 349732, at *7. Because the
comments appear throughout the entirety of this brief
document, it is not reasonably segregable. See Nat’l
Wildlife Fed’n, 861 F.2d at 1119. Defendants may withhold this document from production.
5.

Pinniped Measures (NMFS 0.7.266.37695):
Not Protected

This 2-page document lists the steps that owner/
operators must follow if a seal, sea lion, or fur seal, or
their designated critical habitat, may be affected by a
cooling water intake structure. It contains no subjective
comments, recommendations, or opinions, and is a “relatively polished draft.” Nw. Envtl. Advocates, 2009 WL
349732, at *7. Accordingly, it is not exempt from disclosure under the deliberative process privilege. See
Greenpeace, 198 F.R.D. at 543.

51a
6.

Sea Turtle Requirements (NMFS 0.7.266.
45263.1): Protected

This 2-page document lists the steps that owner/
operators must follow if sea turtles are affected by their
cooling water intake structures. This document contains comments and additions that reflect “internal discussions” and “back-and-forth/give-and-take [that is] protected by the deliberative process privilege.” Nw. Envtl.
Advocates, 2009 WL 349732, at *7. Because the comments appear throughout the entirety of this brief document, it is not reasonably segregable. See Nat’l Wildlife Fed’n, 861 F.2d at 1119. Defendants may withhold
this document from production.
7.

Sea Turtle Requirements (NMFS 0.7.266.
45277.2): Protected

This 2-page document is an exact duplicate of NMFS
0.7.266.45263.1, including all comments, modifications,
and additions. For the reasons discussed above, this
document is protected and need not be disclosed.
8.

Sea Turtle Requirements (NMFS 0.7.266.
37667): Not Protected

This 3-page document lists the steps that owner/
operators must follow if sea turtles are affected by their
cooling water intake structures. It contains no subjective
comments, recommendations, or opinions, and is a “relatively polished draft.” Nw. Envtl. Advocates, 2009 WL
349732, at *7. Accordingly, it is not exempt from disclosure under the deliberative process privilege. See
Greenpeace, 198 F.R.D. at 543.

52a
9.

Table re Affected Species (NMFS 0.7.266.
61721): Not Protected

This 1-page document contains a statistical chart showing estimated aggregate effects of cooling water intake
structure facilities on protected species as a result of impingement and entrainment. It contains no subjective
comments, recommendations, or opinions, and is a “relatively polished draft.” Nw. Envtl. Advocates, 2009 WL
349732, at *7. Accordingly, it is not exempt from disclosure under the deliberative process privilege. See
Greenpeace, 198 F.R.D. at 543.
10

Terms and Conditions (NMFS 0.7.266.
14973.1): Partially Protected

This 5-page document lists the terms and conditions
with which the EPA and an owner/operator must comply
in order to be exempt from Section 9 of the ESA.
These terms and conditions involve the protocols for
dealing with sea turtles near cooling water intake structures. Although Defendant’s cross-motion for summary
judgment describes the document as “NMFS staff correspondence made in the course of deliberating about
and preparing biological opinions,” the document does
not contain correspondence. The only notation throughout the document is one sentence highlighted in yellow,
which may reveal NMFS’s personnel’s decisionmaking
process, and thus may be redacted. See Nat’l Wildlife
Fed’n, 861 F.2d at 1119. The remainder of the document is not protected and should be disclosed.
IV.

CONCLUSION

For the reasons set forth above, the cross-motions
for summary judgment are GRANTED IN PART and
DENIED IN PART. Defendants shall produce the

53a
following documents in their entirety: NMFS 0.7.266.
44516.1; FWS 252; FWS 279; FWS 308; FWS 555;
NMFS 0.7.266.5427.1; NMFS 0.7.266.5597.1; NMFS
0.7.266.7544.2; NMFS 0.7.266.37667; NMFS 0.7.266.
37695; NMFS 0.7.266.61721. Defendants shall redact
the protected portions of the following document and
produce the remainder: NMFS 0.7.266.14973.1. Defendants may withhold the following documents in their
entirety: NMFS 0.7.266.7544.3; NMFS 0.7.266.44616.1;
NMFS 0.7.266.45263.1; NMFS 0.7.266.45277.2. Defendants shall produce the required documents to Plaintiff
within two weeks from the date of this order.
IT IS SO ORDERED.

Dated:

July 24, 2017
/s/

ELIZABETH D. LAPORTE
ELIZABETH D. LAPORTE
United States Magistrate Judge

54a
APPENDIX C

1.

5 U.S.C. 552(b) (2012) provides in pertinent part:

Public information; agency rules, opinions, orders, records,
and proceedings

*
(b)
are—

*

*

*

*

This section does not apply to matters that
*

*

*

*

*

(5) inter-agency or intra-agency memorandums or
letters which would not be available by law to a party
other than an agency in litigation with the agency;
*

*

*

*

*

Any reasonably segregable portion of a record shall be
provided to any person requesting such record after deletion of the portions which are exempt under this subsection. The amount of information deleted, and the
exemption under which the deletion is made, shall be indicated on the released portion of the record, unless including that indication would harm an interest protected
by the exemption in this subsection under which the deletion is made. If technically feasible, the amount of
the information deleted, and the exemption under which
the deletion is made, shall be indicated at the place in
the record where such deletion is made.
*

*

*

*

*

55a
2.

16 U.S.C. 1536 provides in pertinent part:

Interagency cooperation
(a)

Federal agency actions and consultations

*

*

*

*

*

(2) Each Federal agency shall, in consultation with
and with the assistance of the Secretary, insure that any
action authorized, funded, or carried out by such agency
(hereinafter in this section referred to as an “agency action”) is not likely to jeopardize the continued existence
of any endangered species or threatened species or result in the destruction or adverse modification of habitat
of such species which is determined by the Secretary,
after consultation as appropriate with affected States, to
be critical, unless such agency has been granted an exemption for such action by the Committee pursuant to
subsection (h) of this section. In fulfilling the requirements of this paragraph each agency shall use the best
scientific and commercial data available.
*
(b)

*

*

*

*

*

*

*

Opinion of Secretary

*

*

(3)(A) Promptly after conclusion of consultation under paragraph (2) or (3) of subsection (a) of this section,
the Secretary shall provide to the Federal agency and
the applicant, if any, a written statement setting forth
the Secretary’s opinion, and a summary of the information on which the opinion is based, detailing how the
agency action affects the species or its critical habitat.

56a
If jeopardy or adverse modification is found, the Secretary shall suggest those reasonable and prudent alternatives which he believes would not violate subsection
(a)(2) of this section and can be taken by the Federal
agency or applicant in implementing the agency action.
*
3.

*

*

*

*

50 C.F.R. 402.13 (2013) provides:

Informal consultation.

(a) Informal consultation is an optional process
that includes all discussions, correspondence, etc., between the Service and the Federal agency or the designated non-Federal representative, designed to assist
the Federal agency in determining whether formal consultation or a conference is required. If during informal consultation it is determined by the Federal agency,
with the written concurrence of the Service, that the action is not likely to adversely affect listed species or critical habitat, the consultation process is terminated, and
no further action is necessary.
(b) During informal consultation, the Service may
suggest modifications to the action that the Federal
agency and any applicant could implement to avoid the
likelihood of adverse effects to listed species or critical
habitat.

57a
4.

50 C.F.R. 402.14 (2013) provides:

Formal consultation.

(a) Requirement for formal consultation. Each
Federal agency shall review its actions at the earliest
possible time to determine whether any action may affect listed species or critical habitat. If such a determination is made, formal consultation is required, except as noted in paragraph (b) of this section. The Director may request a Federal agency to enter into consultation if he identifies any action of that agency that
may affect listed species or critical habitat and for which
there has been no consultation. When such a request is
made, the Director shall forward to the Federal agency
a written explanation of the basis for the request.
(b) Exceptions. (1) A Federal agency need not
initiate formal consultation if, as a result of the preparation of a biological assessment under § 402.12 or as a result of informal consultation with the Service under
§ 402.13, the Federal agency determines, with the written concurrence of the Director, that the proposed action is not likely to adversely affect any listed species or
critical habitat.
(2) A Federal agency need not initiate formal consultation if a preliminary biological opinion, issued after
early consultation under § 402.11, is confirmed as the final biological opinion.
(c) Initiation of formal consultation. A written
request to initiate formal consultation shall be submitted to the Director and shall include:
(1)

A description of the action to be considered;

58a
(2) A description of the specific area that may be
affected by the action;
(3) A description of any listed species or critical
habitat that may be affected by the action;
(4) A description of the manner in which the action
may affect any listed species or critical habitat and an
analysis of any cumulative effects;
(5) Relevant reports, including any environmental
impact statement, environmental assessment, or biological assessment prepared; and
(6) Any other relevant available information on the
action, the affected listed species, or critical habitat.
Formal consultation shall not be initiated by the Federal
agency until any required biological assessment has
been completed and submitted to the Director in accordance with § 402.12. Any request for formal consultation
may encompass, subject to the approval of the Director,
a number of similar individual actions within a given geographical area or a segment of a comprehensive plan.
This does not relieve the Federal agency of the requirements for considering the effects of the action as a whole.
(d) Responsibility to provide best scientific and commercial data available. The Federal agency requesting formal consultation shall provide the Service with
the best scientific and commercial data available or which
can be obtained during the consultation for an adequate
review of the effects that an action may have upon listed
species or critical habitat. This information may include the results of studies or surveys conducted by the
Federal agency or the designated non-Federal repre-

59a
sentative. The Federal agency shall provide any applicant with the opportunity to submit information for consideration during the consultation.
(e) Duration and extension of formal consultation.
Formal consultation concludes within 90 days after its
initiation unless extended as provided below. If an applicant is not involved, the Service and the Federal agency
may mutually agree to extend the consultation for a specific time period. If an applicant is involved, the Service and the Federal agency may mutually agree to extend the consultation provided that the Service submits
to the applicant, before the close of the 90 days, a written statement setting forth:
(1)

The reasons why a longer period is required,

(2) The information that is required to complete the
consultation, and
(3) The estimated date on which the consultation
will be completed.
A consultation involving an applicant cannot be extended for more than 60 days without the consent of the
applicant. Within 45 days after concluding formal consultation, the Service shall deliver a biological opinion to
the Federal agency and any applicant.
(f ) Additional data. When the Service determines
that additional data would provide a better information
base from which to formulate a biological opinion, the
Director may request an extension of formal consultation and request that the Federal agency obtain additional data to determine how or to what extent the action
may affect listed species or critical habitat. If formal
consultation is extended by mutual agreement according to § 402.14(e), the Federal agency shall obtain, to the

60a
extent practicable, that data which can be developed
within the scope of the extension. The responsibility
for conducting and funding any studies belongs to the
Federal agency and the applicant, not the Service. The
Service’s request for additional data is not to be construed as the Service’s opinion that the Federal agency
has failed to satisfy the information standard of section
7(a)(2) of the Act. If no extension of formal consultation
is agreed to, the Director will issue a biological opinion
using the best scientific and commercial data available.
(g) Service responsibilities. Service responsibilities during formal consultation are as follows:
(1) Review all relevant information provided by the
Federal agency or otherwise available. Such review may
include an on-site inspection of the action area with representatives of the Federal agency and the applicant.
(2) Evaluate the current status of the listed species
or critical habitat.
(3) Evaluate the effects of the action and cumulative effects on the listed species or critical habitat.
(4) Formulate its biological opinion as to whether
the action, taken together with cumulative effects, is
likely to jeopardize the continued existence of listed species or result in the destruction or adverse modification
of critical habitat.
(5) Discuss with the Federal agency and any applicant the Service’s review and evaluation conducted under paragraphs (g)(1) through (3) of this section, the basis for any finding in the biological opinion, and the availability of reasonable and prudent alternatives (if a jeopardy opinion is to be issued) that the agency and the applicant can take to avoid violation of section 7(a)(2). The

61a
Service will utilize the expertise of the Federal agency
and any applicant in identifying these alternatives. If
requested, the Service shall make available to the Federal agency the draft biological opinion for the purpose
of analyzing the reasonable and prudent alternatives.
The 45-day period in which the biological opinion must
be delivered will not be suspended unless the Federal
agency secures the written consent of the applicant to
an extension to a specific date. The applicant may request a copy of the draft opinion from the Federal agency.
All comments on the draft biological opinion must be
submitted to the Service through the Federal agency,
although the applicant may send a copy of its comments
directly to the Service. The Service will not issue its
biological opinion prior to the 45-day or extended deadline while the draft is under review by the Federal agency.
However, if the Federal agency submits comments to
the Service regarding the draft biological opinion within
10 days of the deadline for issuing the opinion, the Service is entitled to an automatic 10-day extension on the
deadline.
(6) Formulate discretionary conservation recommendations, if any, which will assist the Federal agency
in reducing or eliminating the impacts that its proposed
action may have on listed species or critical habitat.
(7) Formulate a statement concerning incidental
take, if such take may occur.
(8) In formulating its biological opinion, any reasonable and prudent alternatives, and any reasonable
and prudent measures, the Service will use the best scientific and commercial data available and will give appropriate consideration to any beneficial actions taken

62a
by the Federal agency or applicant, including any actions taken prior to the initiation of consultation.
(h) Biological opinions.
shall include:

The biological opinion

(1) A summary of the information on which the
opinion is based:
(2) A detailed discussion of the effects of the action
on listed species or critical habitat; and
(3) The Service’s opinion on whether the action is
likely to jeopardize the continued existence of a listed
species or result in the destruction or adverse modification of critical habitat (a “jeopardy biological opinion”);
or, the action is not likely to jeopardize the continued
existence of a listed species or result in the destruction
or adverse modification of critical habitat (a “no jeopardy” biological opinion). A “jeopardy” biological opinion shall include reasonable and prudent alternatives, if
any. If the Service is unable to develop such alternatives, it will indicate that to the best of its knowledge
there are no reasonable and prudent alternatives.
(i) Incidental take. (1) In those cases where
the Service concludes that an action (or the implementation of any reasonable and prudent alternatives) and
the resultant incidental take of listed species will not violate section 7(a)(2), and, in the case of marine mammals, where the taking is authorized pursuant to section
101(a)(5) of the Marine Mammal Protection Act of 1972,
the Service will provide with the biological opinion a
statement concerning incidental take that:
(i) Specifies the impact, i.e., the amount or extent,
of such incidental taking on the species;

63a
(ii) Specifies those reasonable and prudent measures
that the Director considers necessary or appropriate to
minimize such impact;
(iii) In the case of marine mammals, specifies those
measures that are necessary to comply with section
101(a)(5) of the Marine Mammal Protection Act of 1972
and applicable regulations with regard to such taking;
(iv) Sets forth the terms and conditions (including,
but not limited to, reporting requirements) that must be
complied with by the Federal agency or any applicant
to implement the measures specified under paragraphs
(i)(1)(ii) and (i)(1)(iii) of this section; and
(v) Specifies the procedures to be used to handle or
dispose of any individuals of a species actually taken.
(2) Reasonable and prudent measures, along with
the terms and conditions that implement them, cannot
alter the basic design, location, scope, duration, or timing of the action and may involve only minor changes.
(3) In order to monitor the impacts of incidental
take, the Federal agency or any applicant must report
the progress of the action and its impact on the species
to the Service as specified in the incidental take statement. The reporting requirements will be established
in accordance with 50 CFR 13.45 and 18.27 for FWS and
50 CFR 220.45 and 228.5 for NMFS.
(4) If during the course of the action the amount or
extent of incidental taking, as specified under paragraph
(i)(1)(i) of this Section, is exceeded, the Federal agency
must reinitiate consultation immediately.

64a
(5) Any taking which is subject to a statement as
specified in paragraph (i)(1) of this section and which is
in compliance with the terms and conditions of that
statement is not a prohibited taking under the Act, and
no other authorization or permit under the Act is required.
( j) Conservation recommendations. The Service
may provide with the biological opinion a statement containing discretionary conservation recommendations.
Conservation recommendations are advisory and are
not intended to carry any binding legal force.
(k) Incremental steps. When the action is authorized by a statute that allows the agency to take incremental steps toward the completion of the action, the
Service shall, if requested by the Federal agency, issue
a biological opinion on the incremental step being considered, including its views on the entire action. Upon
the issuance of such a biological opinion, the Federal
agency may proceed with or authorize the incremental
steps of the action if:
(1) The biological opinion does not conclude that
the incremental step would violate section 7(a)(2);
(2) The Federal agency continues consultation with
respect to the entire action and obtains biological opinions, as required, for each incremental step;
(3) The Federal agency fulfills its continuing obligation to obtain sufficient data upon which to base the
final biological opinion on the entire action;
(4) The incremental step does not violate section
7(d) of the Act concerning irreversible or irretrievable
commitment of resources; and

65a
(5) There is a reasonable likelihood that the entire
action will not violate section 7(a)(2) of the Act.
(l) Termination of consultation. (1) Formal consultation is terminated with the issuance of the biological
opinion.
(2) If during any stage of consultation a Federal
agency determines that its proposed action is not likely
to occur, the consultation may be terminated by written
notice to the Service.
(3) If during any stage of consultation a Federal
agency determines, with the concurrence of the Director, that its proposed action is not likely to adversely affect any listed species or critical habitat, the consultation is terminated.

